`




    U. S. Department of Agriculture

     Office of Inspector General

                      Audit Report


     National Fluid Milk Processor
     Promotion Program


     NOTICE - THIS REPORT RESTRICTED TO OFFICIAL USE

     This report is provided to program officials soley for their
     official use. Further distribution of this information is not
     authorized.




                                                   Audit Report No.
                                                   01001-3-Ch
                                                   SEPTEMBER 1998
TABLE OF CONTENTS


CHAPTER 1 - EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv

                   Results in Brief . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv

                   Key Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . vi

                   Agency Position . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . vi

                   OIG Position . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . vii


CHAPTER 2 - INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

                   Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

                   Results of Management Alert . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

                   Objectives . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

                   Scope . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

                   Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


CHAPTER 3 - FINDING NO. 1 - AMS AND THE FLUID MILK BOARD NEED
            TO STRENGTHEN THEIR CONTROL OF THE PROGRAM . . . 9

                   Recommendation No. 1a . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

                   Recommendation No. 1b . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20




USDA/OIG-A/01001-3-Ch                                                                                  Page        i
TABLE OF CONTENTS


CHAPTER 4 - CONTRACT PROCEDURES DID NOT
            COMPLY WITH REQUIREMENTS OF THE ACT
            AND/OR ORDER . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

                  FINDING NO. 2 - THE BOARD MADE CONTRACT PAYMENTS
                  THAT WERE NOT APPROVED BY AMS . . . . . . . . . . . . . . . . . 21

                  Recommendation No. 2a . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

                  Recommendation No. 2b . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

                  FINDING NO. 3 - CONTRACTS DID NOT INCLUDE CERTAIN
                  REQUIRED LANGUAGE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

                  Recommendation No. 3a . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

                  Recommendation No. 3b . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

                  FINDING NO. 4 - PROGRESS REPORTS WERE NOT
                  SUBMITTED AND EXPENSE LIMITS WERE EXCEEDED . . . . 30

                  Recommendation No. 4a . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32

                  Recommendation No. 4b . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32

                  FINDING NO. 5 - CONTRACT TERMS WERE NOT
                  BEING MET . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

                  Recommendation No. 5 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34




USDA/OIG-A/01001-3-CH                                                                             Page ii
TABLE OF CONTENTS


                FINDING NO. 6 - THE BOARD USED SOLE-SOURCE
                CONTRACTORS WITH NO EVIDENCE OF OTHER
                CONTRACTORS BEING CONSIDERED . . . . . . . . . . . . . . . . . . 34

                Recommendation No. 6 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37

                FINDING NO. 7 - FINANCIAL STATEMENTS WERE
                INCORRECT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38

                Recommendation No. 7a . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 42

                Recommendation No. 7b . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 42

                Recommendation No. 7c . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 42


EXHIBITS

     A - AMS’ RESPONSE TO THE DRAFT REPORT . . . . . . . . . . . . . . . . . 44

     B - OIG’S COMMENTS RELATED TO AMS’ WRITTEN
         RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 56

     C - ADVERTISING AGENCY’S MEMORANDUM TO OIG . . . . . . . . . . 72

     D - ADVERTISING AGENCY’S MEMORANDUM TO OIG
         AS SENT BY AMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 84

     E - ADVERTISING AGENCY’S MEMORANDUM TO
         ITS SUBSIDIARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 91




USDA/OIG-A/01001-3-CH                                                                         Page iii
                   CHAPTER 1 - EXECUTIVE SUMMARY



Results In Brief        This report presents the results of our audit of the
                        Agricultural Marketing Service’s (AMS) National Fluid
                        Milk Processor Promotion Program (Program). AMS
                        requested an audit of this new Program to ensure that
                        it was being administered in compliance with the Fluid
                        Milk Promotion Act of 1990 (Act) and the Fluid Milk
                        Order (Order).

                        Our review disclosed serious problems with the
                        National Fluid Milk Processor Promotion Board’s
                        (Board) management structure and with the manner in
                        which expenditures were made. The Board remained
                        detached from the day-to-day operations of the
                        Program, delegating all administrative tasks to
                        contractors and taking no independent actions to
                        ascertain the effectiveness of the Program. According
                        to the Board Administrator (Person A), he did not
                        believe anyone was interested in knowing whether the
                        Board’s activities influenced milk consumption.
                        Concurrently, AMS provided little active oversight of
                        the Board’s activities.

                        Our review disclosed that the Board’s controls over
                        contracts were inadequate or were not working. The
                        Board entered into sole-source contracts without any
                        competition to ensure the most cost-effective
                        procurement and without obtaining AMS’ approval
                        prior to the effective date of the contracts. The
                        administrative reports required by contracts, such as
                        monthly progress and performance reports and overall
                        project evaluation reports, were not being delivered,
                        leaving the Board in a weakened position to manage
                        the contracts. Payments were made which exceeded
                        contract limits. These overpayments indicated that the



USDA/OIG-A/01001-3-CH                                                Page iv
                        internal controls were either inadequate or were not
                        working. In addition, the terms of contracts were not
                        being enforced. One contract requires that a reserve
                        of approximately $350,000 be established (to be paid
                        as an incentive bonus if fluid milk sales increased) and
                        maintained; that reserve has not been established.

                        We identified payments made for 108 contracts;
                        however, neither AMS nor the Board could provide us
                        with copies of 37 of these contracts. (We found no
                        evidence to cause us to question the existence of the
                        37 contracts as we found documentation in the files
                        that indicated funds appeared to be expended for
                        program-related purposes.) As a result, we could not
                        ascertain if funds spent for these goods/services met
                        contract specifications. Of the 71 contracts available
                        for review, 33 were not signed by at least one of the
                        contracting parties prior to the contracts’ effective
                        dates. Also, AMS had not approved 68 of these
                        71 contracts prior to the contracts’ effective dates.

                        The Board presented audited financial statements
                        which did not accurately reflect its financial condition.
                        The financial statements as of March 31, 1995, and as
                        of April 30, 1996, contained material omissions and
                        questionable statements that, in the aggregate, were
                        significant enough to affect the decisions of its users.

                        Because of the magnitude of the problems we
                        identified at the outset of our audit, we issued a
                        Management Alert on May 6, 1997.             In the
                        Management Alert, we raised concerns dealing with
                        the very limited amount of AMS oversight of Board
                        activities. We were also particularly concerned with
                        the Board’s control structure, its reliance on
                        contractors to run day-to-day operations, and its
                        contracting procedures, including ownership of
                        copyrights developed with assessments collected as
                        a result of the Act.



USDA/OIG-A/01001-3-CH                                                  Page v
                        In response to our Management Alert, AMS advised
                        that it had taken a number of corrective actions.
                        These actions included personnel changes to ensure
                        better AMS oversight, the approval of a new contract
                        review process, the request for and receipt of an
                        opinion from the Office of the General Counsel
                        concerning the ownership of property developed with
                        assessment funds, and continuing to review all
                        minutes kept of Board meetings. We were also
                        advised that the Board has taken a number of actions
                        to strengthen control over the Program by increasing
                        the amount of time required of its Administrator from
                        an average of 9 hours per week to 23 hours per week,
                        establishing a new contract review procedure with
                        AMS, and retaining outside legal counsel to aid in
                        contract review and taking minutes of Board meetings.

                        While we acknowledge that certain changes have
                        been made, we continue to have serious concerns
                        over the management structure of the Board and
                        contracting procedures.

Key                     We recommend that AMS suspend the operations of
Recommendations         the Board until AMS and the Board jointly restructure
                        the management of Board activities to ensure full
                        compliance with the Act and the Order. The Board
                        needs to establish guidelines for awarding contracts
                        and subcontracts to ensure that goods and services
                        are not sole-sourced. In addition, we recommended
                        that AMS continue to increase its oversight of Board
                        activities.

Agency Position         AMS did not agree to suspend the Board’s activities.
                        Although AMS has made proposals to restructure the
                        management of the Board’s activities, there have been
                        no definitive plans presented to date. AMS agreed
                        with most of the recommendations, though in some
                        cases they proposed alternative actions or did not give
                        sufficient details of the corrective actions they were



USDA/OIG-A/01001-3-CH                                                 Page vi
                        proposing. AMS’s response is included as exhibit A.
                        The AMS response included voluminous attachments
                        which are not included herein.

OIG Position            AMS should suspend the Board’s activities until AMS
                        and the Board develop a plan to restructure the
                        management of Board activities. Many of the
                        corrective actions proposed by AMS did not
                        adequately address the audit recommendations. We
                        do not agree with many of the comments made in
                        AMS’ response to our draft report. (See exhibit B for
                        assertions made by AMS and our response).




USDA/OIG-A/01001-3-CH                                               Page vii
                   CHAPTER 2 - INTRODUCTION




                        Background

                        The Agricultural Marketing Service (AMS) has
                        responsibility for the National Fluid Milk Processor
                        Promotion Program (Program), which was authorized by
                        the Fluid Milk Promotion Act of 1990 (Act) (Public Law
                        101-624) and the Fluid Milk Promotion Amendments Act
                        of 1993 (Public Law 103-72). The Program is designed
                        to fund promotion, research, and consumer education.
                        The Act directed the Secretary of Agriculture (Secretary)
                        to issue a Fluid Milk Order (Order) to implement the
                        Program.        The Order became effective on
                        December 10, 1993, and the Secretary appointed the
                        first National Fluid Milk Processor Promotion Board
                        (Board) on June 6, 1994.

                        The Program is funded by a mandatory 20-cents-per-
                        hundredweight assessment on all fluid milk products
                        processed and marketed commercially in consumer-
                        type packages in the 48 contiguous United States and
                        in the District of Columbia. The Act defines a fluid milk
                        processor as “* * * any person who processes and
                        markets commercially more than 500,000 pounds of
                        fluid milk products in consumer-type packages per
                        month.”

                        AMS’ oversight responsibilities include reviewing and
                        approving the Board’s budgets, contracts, advertising
                        campaigns, and investment plans. AMS is also
                        responsible for evaluating the Program’s effectiveness
                        and for ensuring that promotion funds are collected and
                        spent consistent with the enabling legislation.



USDA/OIG-A/01001-3-CH                                                   Page 1
                        Assessment       revenues      from      approximately
                        370     processors    totaled    $168,729,598     from
                        December 10, 1993, through June 30, 1997. We found
                        no problems in the system of collecting and depositing
                        assessments. Program expenses during that period
                        were $131,225,781, and Board expenses were
                        $288,329. (The Order required the Board to return
                        $16,446,385 to the California Fluid Milk Processor
                        Promotion Board. For this audit, we verified only that
                        the funds were transferred to the California Fluid Milk
                        Processor Promotion Board. We did not review the use
                        of these funds.)

                        The Board has a contract with the Milk Industry
                        Foundation (MIF) to perform various management and
                        administrative services. Because MIF does not have
                        employees to perform these services, it contracts for
                        them with the International Dairy Foods Association
                        (IDFA), its parent organization. (The chief executive
                        officer, Person B, of both MIF and IDFA is a registered
                        lobbyist with the U.S. Congress.)             MIF also
                        subcontracts most of the advertising and public relations
                        activities.

                        The Board’s contract with MIF requires MIF to conduct
                        promotion and research activities and to provide
                        administrative services for the Milk Processor Education
                        Program. The administrative services are to include
                        planning and coordinating Board meetings and
                        providing onsite support personnel for Board and
                        committee meetings. The MIF contract with IDFA
                        requires IDFA to perform all tasks detailed in the
                        contract between the Board and MIF.

                        The Board also has two contracts with the certified
                        public accounting (CPA) firm in which Person A, the
                        Board Administrator, is a principal. One contract is for
                        overseeing    the collection of assessments and




USDA/OIG-A/01001-3-CH                                                   Page 2
                        performing accounting services; the other is for
                        contractor compliance reviews.

                        In addition, the Board has a contract with Person A, as
                        an individual, to perform services as a part-time
                        administrator for the Board. Finally, the Board also has
                        a contract with a law firm for legal services.

                        The Board contracted with MIF to use MIF resources to
                        pay bills on a reimbursable basis. This procedure
                        changed in 1995, when advertising expenses became
                        too great. At that point, MIF decided it would only
                        review and approve expenses and submit them through
                        Person A’s CPA firm to the Board for payment. The
                        procedure changed again in 1997, at which point the
                        advertising agency began sending its invoices directly
                        to the CPA firm, while submitting duplicates to MIF for
                        approval.

                        The highly recognized milk-mustache advertising
                        campaign has been the Board's primary method of
                        promoting milk since the Board's inception. Although
                        these advertisements are highly recognized in the
                        marketplace, the Board has not determined whether the
                        advertising campaign has resulted in increased milk
                        consumption.

                        We reviewed the Board’s activities in 1994 because of
                        congressional concerns about the propriety of the
                        Board's dealings with a lobbying organization. Concern
                        centered around (1) the propriety of IDFA’s having an
                        executive director for the Board before the Board itself
                        had been sworn in and seated, and (2) the payment of
                        Program funds to organizations (IDFA and MIF) whose
                        chief executive officer and vice presidents were
                        registered as lobbyists with the U.S. Congress. The use
                        of Board funds for lobbying purposes is a violation of
                        the Act.




USDA/OIG-A/01001-3-CH                                                  Page 3
                        We concluded that the Board had not prematurely hired
                        an executive director and that no Program funds had
                        been expended for lobbying purposes. We also
                        concluded that a combination of the Board’s hiring or
                        contracting for staff, the Board’s use of independent
                        audits, and AMS’ normal control structure of reviewing
                        and approving Board-recommended activities should
                        have provided reasonable control measures to ensure
                        that promotion funds were used only for lawful
                        purposes. However, during this audit we found that
                        these measures were not properly taken. We found
                        problems with the Board’s management structure,
                        independent audits, and AMS’ oversight.

                        Results Of Management Alert

                        Our survey (01001-1-Ch) noted that the controls
                        originally intended to be implemented by the Board
                        were either not implemented or not implemented as
                        planned. As a result, we issued a Management Alert,
                        dated May 6, 1997, in which we recommended the AMS
                        Administrator take corrective actions.

                         -    We recommended that the AMS Administrator
                              require the Board to take full control of day-to-day
                              operations for all Program activities. AMS
                              responded that by May 30, 1997, it would (1)
                              send a letter to the Board outlining AMS’ position
                              regarding the Board’s responsibilities, and (2)
                              work with the Board to develop a staff and
                              structure to take full control of operations. AMS
                              asked the Board to consider hiring a full-time
                              administrator and support personnel.

                         -    We recommended that the AMS Administrator
                              require that all contracts, subcontracts, and
                              agreements that commit Program funds be timely
                              approved. AMS responded that it would (1)
                              direct the Board to stop paying for work that AMS



USDA/OIG-A/01001-3-CH                                                   Page 4
                              had not approved, (2) require that the Board
                              submit all contracts and subcontracts to AMS for
                              review, and (3) reevaluate its policy on reviewing
                              and approving contracts and subcontracts within
                              90 days.

                         -    We recommended that title to all products
                              acquired with Program funds become the
                              property of the Board. AMS responded that it
                              would obtain an opinion from the Office of the
                              General Counsel (OGC). (See page 28.)

                        In response to our Management Alert, the Board
                        increased the Board Administrator’s responsibilities and
                        contracted for outside legal counsel; we continue to
                        believe that more involvement by the Board and its
                        Administrator is necessary. Most of the Board’s
                        expenditures (advertising expenses) are still being
                        managed by subcontractor personnel without active
                        involvement or oversight by the Board and with only
                        limited oversight by its Administrator. AMS initially
                        agreed to have all contracts, subcontracts, and
                        agreements submitted for review prior to their effective
                        dates. However, AMS subsequently reached an
                        agreement with the Board that only nine contracts would
                        be submitted for approval; all remaining contracts,
                        subcontracts, and agreements would be kept on file at
                        the Board Administrator’s office for AMS’ review. We
                        do not concur with this agreement between AMS and
                        the Board; AMS should, on a timely basis, receive all
                        contracts, subcontracts, and agreements for review.
                        Finally, the Board has revised the language in a
                        subcontract with a photographer for the Board to obtain
                        title to the assets produced. However, under the
                        revised language in the subcontract, the subcontractor
                        will retain physical possession and be paid a royalty for
                        any use other than the original contract period. In form,
                        it appears that the Board has obtained title to the




USDA/OIG-A/01001-3-CH                                                   Page 5
                        assets; in substance, the subcontractor still retains all
                        substantive property rights.

                        Although we have not verified them, we were recently
                        advised of the following corrective actions taken by
                        AMS and the Board.

                          S   MIF is now submitting progress reports to the
                              Board.

                          S   Certain unspecified changes have been made in
                              the Board’s meeting procedures and the Board
                              now meets privately with its Administrator and
                              legal counsel during each Board meeting.

                          S   Outside legal counsel (Person C) is to oversee
                              contract development and compliance by
                              contractors with contract provisions.

                          S   The Board changed the way its meeting minutes
                              were to be taken, prepared, and maintained.

                          S   The Board developed a checklist of provisions
                              required for contracts and agreements.

                          S   New procedures have been implemented to
                              assure that celebrities sign agreements prior to
                              their photographs being taken.

                        Objectives

                        Our objectives were to: (1) Evaluate AMS’ procedures
                        for overseeing the Program, including actions to
                        address deficiencies identified in the OIG Management
                        Alert dated May 6, 1997; (2) evaluate the Board’s
                        policies and procedures for administering the Program
                        and assess whether internal controls were adequate to
                        ensure funds were used only for authorized purposes;
                        (3) evaluate the contractors’ performance of their



USDA/OIG-A/01001-3-CH                                                   Page 6
                        responsibilities to the Board; and (4) evaluate the
                        effectiveness of the independent CPA firm’s
                        performance of its responsibilities to the Board.

                        Scope

                        The audit covered the Program from its inception in
                        December 1993 through June 30, 1997. We reviewed
                        and tested a judgmental sample of transactions,
                        documents, and other records relating to assessments
                        totaling $168 million and the associated expenditures
                        and investments. We compared AMS’ reported milk
                        production with the assessments and found them to be
                        reasonable. We evaluated AMS’ procedures for
                        overseeing the Program, the Board’s policies and
                        procedures for administering the Program, selected
                        contractors’       compliance       with   contractual
                        responsibilities, and the Board’s independent auditor’s
                        responsibility to the Board. We identified internal
                        controls through interviews and tested their
                        effectiveness. Audit work was performed at AMS
                        Headquarters in Washington, D.C.; the Board
                        Administrator’s office in Bethesda, Maryland; the
                        Board’s major contractors in Washington, D.C., and
                        Bethesda, Maryland; the advertising agency’s offices in
                        Chicago, Illinois, and New York, New York; and the
                        Board’s independent auditor in Reading, Pennsylvania.
                        We performed fieldwork from May through September
                        1997. We also referred to survey (Survey No. 01001-1-
                        Ch) fieldwork conducted from January through May
                        1997. We conducted the audit in accordance with
                        Government Auditing Standards.

                        Methodology

                        To accomplish the audit objectives, our examination
                        consisted of:




USDA/OIG-A/01001-3-CH                                                 Page 7
                        S   Reviewing Federal laws, regulations, policies,
                            and procedures relating to the Program,

                        S   interviewing AMS officials, the Board and its
                            Administrator, the Board’s major contractors, the
                            major advertising subcontractor, and the Board’s
                            outside auditor,

                        S   testing receipt and deposit of assessments and
                            the related expenditures and investments,

                        S   visiting the Board’s major contractors and
                            subcontractor for the purpose of examining the
                            contractors’ accounting and other financial
                            records,

                        S   examining and analyzing AMS’ oversight
                            documents and contract review policy, and

                        S   visiting the Board’s outside auditor to examine his
                            audit workpapers.




USDA/OIG-A/01001-3-CH                                                 Page 8
                   CHAPTER 3 - FINDING NO. 1
             AMS AND THE FLUID MILK BOARD NEED TO
                  STRENGTHEN THEIR CONTROL
                       OF THE PROGRAM


                        AMS effectively left all oversight responsibilities to the
                        Board, and the Board, because it had no employees,
                        left its oversight responsibilities to the contractors it
                        relied on for administrative services. We concluded
                        that because AMS did not provide proper oversight
                        and direction, the Board (1) allowed the payment of
                        over $127 million in expenses that were not supported
                        by AMS-approved contracts (see Finding No. 2),
                        (2) surrendered its ability to enforce compliance by
                        contractors and subcontractors (see Findings Nos. 4
                        and 5), and (3) had not maintained approved minutes
                        of Board meetings (see Finding No. 4). Other than the
                        opinions of its contractors/subcontractors, the Board
                        had little information as to the effectiveness of its
                        Program. Another responsibility of both AMS and the
                        Board was to analyze the advertising, promotion, and
                        research activities carried out with Program funds to
                        determine whether they had increased fluid milk
                        consumption. As of the time of our audit, neither entity
                        had done this.

                        Section 1999H of the Act defines the powers and
                        duties of the Board, including the requirement that all
                        contracts and agreements be approved by the
                        Secretary. It also states that the Board must keep
                        minutes, books, and records that reflect all of the acts
                        and transactions of the Board and promptly report
                        minutes of each Board meeting to the Secretary.
                        Section 1999B of the Act states that the purpose of the
                        Program is to carry out an effective program of
                        promotion, research, and consumer education to



USDA/OIG-A/01001-3-CH                                                   Page 9
                        strengthen the position of the dairy industry in the
                        marketplace and to maintain and expand markets and
                        uses for fluid milk products. Section 1990O(b) of the
                        Act states that the Secretary shall terminate or
                        suspend the operation of the Order whenever he finds
                        that the Order does not effectuate the declared policy
                        of the Program. Section 1999C of the Act defines
                        advertising as a program directed toward increasing
                        the general demand for fluid milk products.

                        The Board has chosen to use contractors to perform
                        its managerial and administrative functions instead of
                        hiring its own staff. The Board did not consider the
                        Program to be permanent and did not want the
                        obligations of hiring a permanent staff. Thus, the
                        responsibility of ensuring contract compliance rests
                        largely with the contractors themselves. We question
                        the independence of some of the key contractor
                        employees who have been assigned responsibility for
                        Board activities; it is sometimes unclear whether these
                        employees' concerns lie primarily with the Board or
                        with their own employer, the contractor. The following
                        flow chart shows the major contractors used by the
                        Board.




USDA/OIG-A/01001-3-CH                                                 Page 10
                        1       1




                            1



1




USDA/OIG-A/01001-3-CH       Page 11
                        When we issued our Management Alert in May 1997,
                        the contract for the Board’s Administrator was $75,000
                        per year. Beginning in July 1997, it changed to
                        $100,000 per year. (At the exit conference, we were
                        advised that the contract increased in February 1998
                        to $180,000 for 23 hours of work per week.) The
                        contract also allowed the Board’s Administrator to
                        charge related expenses, such as travel, that are in
                        addition to the $100,000 for his personal services.
                        The Board’s Administrator bills for his services at a
                        rate of $150 per hour (which would equate to an
                        annualized cost of $312,000). This billing rate and the
                        Board Administrator’s contract amount ($100,000)
                        would allow him to charge 13 hours per week for
                        overseeing the Board’s activities. We continue to
                        question whether this 13 hours per week is enough
                        time to properly administer a $120-million-per-year
                        program.

                         -    The Board’s Administrator also has major
                              responsibilities to his CPA firm. This CPA firm
                              has a contract to provide the Board with all
                              required financial and accounting services. The
                              CPA firm has another contract with the Board to
                              provide compliance reviews over other Board
                              contractors.        Altogether, the Board’s
                              Administrator, either as an individual or through
                              his CPA firm, is a party to three contracts with
                              the Board as a sole-source contractor.

                         -    Person A’s CPA firm also provides financial and
                              accounting services to at least two other USDA
                              promotion and research boards.

                         -    Person A also has a commercial business as a
                              financial advisor to other individuals.

                        The following flow chart illustrates the above:




USDA/OIG-A/01001-3-CH                                                 Page 12
USDA/OIG-A/01001-3-CH   Page 13
                        Because of all these other responsibilities, we
                        question whether this Board Administrator has
                        adequate time to devote to the Board’s needs. We
                        question whether these other commitments may have
                        prevented him from ensuring AMS contract approval
                        prior to making payments and from enforcing
                        contractor compliance. Additionally, since Person A
                        is a principle in the CPA firm providing accounting
                        services to the Board, neither the CPA firm nor
                        Person A has the independence required for such
                        services.

                        The Board’s contract with MIF requires that MIF
                        appoint one of its employees as Executive Director of
                        the Milk Processor Education Program (MilkPEP). MIF
                        contracted with IDFA for the services of one of its
                        employees to act as Executive Director of MilkPEP
                        (Person D). We question why the Board would have
                        entered into a contract with MIF for this employee
                        when the Board was fully aware that MIF had no
                        employees.

                        The MIF contract with IDFA requires IDFA to perform
                        (or have others perform) all tasks detailed in the
                        contract between the Board and MIF. From July 1
                        through December 31, 1996, the MilkPEP Executive
                        Director charged an average of 47 hours per week to
                        the Program. As Executive Director (Person D), he is
                        responsible     for    coordinating   the   creation,
                        development, and implementation of promotion
                        campaigns approved by the Board. We believe that
                        since the Executive Director is working full-time on
                        Board activities, the Board should determine if this is
                        the most effective means of obtaining these services.

                        About $127 million in payments were made before the
                        contracts were approved by AMS. (See Finding
                        No. 2.) The Board could have controlled contract
                        payments had it required that its management monitor



USDA/OIG-A/01001-3-CH                                                 Page 14
                        compliance with the Act and the Order. Except for
                        Board members, all those reviewing and approving
                        contract expenditures were themselves contractors or
                        contract employees. We believe that this near total
                        reliance on contractors and contractor employees has
                        resulted in a lack of independence which AMS and the
                        Board should address.

                        The Board’s contract with MIF requires that it submit
                        monthly progress reports and authorization requests
                        on all projects that it is overseeing for the Board. (See
                        Finding No. 4.) Although these reports have been
                        required since July 1994, MIF has never submitted
                        these reports. These reports would have provided the
                        project description, the objective of the project, the
                        planned strategy, the expected benefit to the milk
                        industry, the cost, and the method by which the
                        success of the project would be evaluated. Had these
                        reports been submitted to the Board, it would have
                        been able to more effectively monitor progress in the
                        various Program areas.

                        The Board did not timely monitor Program expenses
                        to determine whether contractual limits were
                        exceeded. (See Finding No. 4.) The Board's contract
                        for an Administrator (Person A) for the period
                        August 30, 1996, through June 30, 1997, had a
                        specified dollar limit, including expenses. Although it
                        was the Board Administrator’s responsibility to monitor
                        contract compliance of all contracts to which the Board
                        was a party, he allowed the contract limits for his
                        personal contract as Board Administrator to be
                        exceeded for 2 consecutive months.

                        The Board relied on IDFA personnel to prepare and
                        maintain official minutes of Board meetings. (See
                        Finding No. 4.) Both IDFA and AMS provided us
                        minutes of Board meetings; however, there were
                        material differences in the two sets of minutes



USDA/OIG-A/01001-3-CH                                                  Page 15
                        provided. The Board Administrator told us that he was
                        “reconstructing” the official minutes. Without official
                        Board minutes, we could not determine which
                        contracts and budgets the Board had approved. We
                        question how the Board’s Administrator can
                        “reconstruct” official minutes of Board meetings held
                        since 1994, as he was only appointed to the position
                        in 1996.

                        Neither AMS nor the Board ensured compliance with
                        the Act or the Order. We found no evidence that an
                        analysis had been performed by either AMS or the
                        Board to determine whether the advertising,
                        promotion, and research activities carried out with
                        Program funds increased consumption of fluid milk.
                        The Board Administrator informed us that a study had
                        not been done and that he did not believe the Board or
                        anyone wanted to know whether the Board’s activities
                        had increased fluid milk consumption.

                        In its Report to Congress, dated July 1, 1997, AMS
                        reported the results of a study that it had
                        commissioned from the Economic Research Service
                        (ERS). ERS performed an examination of the effects
                        of generic advertising on fluid milk sales. This study
                        showed that fluid milk sales were up 5.9 percent from
                        the period October 1995 through September 1996
                        when compared to the previous 12 months. The
                        report states “Sales increases due to the Dairy and
                        Fluid Milk Acts stem from increases in advertising
                        dollars, their effectiveness, and a marked upward shift
                        in fluid milk demand in the post-Act period that
                        partially offsets a downward trend in consumption over
                        time. It is possible that factors other than advertising
                        (e.g., increased public concern about calcium intake)
                        caused some shifts in the consumer demand for milk
                        during the post-Dairy Act Period. Thus, the analysis
                        might overstate the actual effect the Dairy and Fluid
                        Milk Acts had on increasing the advertising/sales



USDA/OIG-A/01001-3-CH                                                 Page 16
                        response for a given level of expenditures.” The ERS
                        study does not show AMS the specific results of the
                        advertising by the National Fluid Milk Processor
                        Promotion Board.

                        In its 1997 Annual Report To Congress, AMS reported
                        that fluid milk sales increased 5.9 percent from
                        October 1995 through September 1996 when
                        compared to the previous 12-month period. In its
                        1996 Report To Congress, AMS reported fluid milk
                        sales of 23.3 billion pounds from October 1994
                        through September 1995 and in its 1997 Report To
                        Congress, AMS reported sales of 23.5 billion pounds
                        from October 1995 through September 1996; that is
                        an increase of only 0.85 percent. AMS officials could
                        not explain this apparent conflict ( 5.9 percent reported
                        versus 0.85 percent calculated by OIG) to us. We
                        then made similar comparisons for previous periods
                        and found similar discrepancies in sales increases
                        reported by AMS, as shown below:


                                                                         FLUID MILK OIG
                                               AMS REPORTED            COMPUTED SALES
                                                 FLUID MILK                INCREASE        AMS SALES
                                                   SALES                FROM PREVIOUS     INCREASE IN
                          ANNUAL REPORT           (BILLION               YEAR TO NEXT       ANNUAL
                             PERIOD               POUNDS)             (SALES DECREASE)      REPORT

                             10/93 - 9/94             22.9                     1/            4.7%

                             10/94 -9/95              23.3                   1.75%           4.2%

                             10/95 - 9/96             23.5                   0.85%           5.9%

                             10/96 - 9/97             23.4                  (0.42%)           2/

                        1/ Data unavailable for calculation.
                        2/ The 1997 report was not completed at the time of our review.


                        The above chart shows wide variances between what
                        AMS reported each year in its annual report and our
                        calculations when comparing one year’s report to the
                        next. AMS officials could not explain these differences
                        to us. We believe this demonstrates that an
                        independent study of the effect of the fluid milk



USDA/OIG-A/01001-3-CH                                                                     Page 17
                        assessments and subsequent advertising is needed to
                        support the continuation of the program. In addition,
                        since no payments were made from the reserve
                        account described in Finding No. 5, we believe this
                        provides further evidence of the questionable extent of
                        sales increases.

                        ERS officials informed us that a separate study could
                        be performed; however, it would have to be designed
                        properly and would take a greater effort than they
                        have previously been performing. More specifically,
                        in its letter to AMS dated April 15, 1998, ERS stated
                        that, “Any current attempt to evaluate the two
                        campaigns separately would require advertising
                        variables that were unique to each campaign and
                        based upon consumer responses to each program.
                        Such a model would require sampling and estimation
                        procedures which are beyond the time and resources
                        of the (ERS) Evaluation Committee.”

Recommendation          Suspend Board activities until AMS and the Board
No. 1a                  jointly develop a plan for restructuring its management
                        of Board activities.

AMS’ Response           AMS officials did not agree to suspend Board
                        activities. Rather, they, along with the Board,
                        developed a plan for restructuring the management of
                        the Board’s activities. AMS advised that the Board
                        agreed to hire a full-time employee to oversee all
                        Board activities. AMS discussed several other
                        corrective actions in its response including: The
                        possibility of having a CPA firm audit the Board’s
                        internal control system, requesting the Board to
                        terminate all contracts with MIF, and requesting the
                        Board to identify all lobbyists and lobbying
                        organizations in all Board contracts and subcontracts.
                        AMS’ target date is December 31, 1998.




USDA/OIG-A/01001-3-CH                                                 Page 18
OIG Position            AMS should suspend the Board’s activities until a
                        specific plan has been developed to restructure the
                        Board’s management of Board activities.           The
                        response provided does not contain specific corrective
                        actions to enable us to reach management decision on
                        this recommendation.

                        In order to reach management decision, AMS needs
                        to suspend Board activities until they have developed
                        and provided us a detailed corrective action plan
                        regarding (1) a restructured Board and its operating
                        plan; (2) termination of the MIF contracts; and
                        (3) revision of the contract/subcontract provisions to
                        require disclosure of lobbyists and lobbying
                        organizations. Since we are recommending that the
                        Board be restructured, we do not believe it is
                        appropriate to conduct a review of the Board’s internal
                        control system.

                        We support the Board’s resolution to hire a full-time
                        “employee” (Administrator) to oversee all activities.
                        To ensure independence, the Administrator needs to
                        be organizationally and physically independent of all
                        external impediments. The Administrator should have
                        sole responsibility to the Board and be responsible for
                        all Board management and administrative functions.
                        In addition, AMS needs to advise us as to the future
                        role of the current Board Administrator, including his
                        duties and responsibilities, if any.

                        AMS has advised that the target date for
                        implementation is December 31, 1998. However,
                        AMS needs to develop intermediate action dates since
                        all the actions cannot be accomplished simultaneously
                        and some are dependent on others. AMS should
                        provide a timeline for the proposed corrective actions.




USDA/OIG-A/01001-3-CH                                                 Page 19
Recommendation          Require the Board to determine the effectiveness of its
No. 1b                  promotion and research activities in increasing fluid
                        milk consumption.

AMS’ Response           AMS recognized the importance of evaluating the
                        effectiveness of the promotion programs and that such
                        evaluations were required by the enabling legislation.
                        AMS agreed to develop a request for proposals to
                        consider new or revised methodologies for evaluating
                        the effectiveness of the advertising campaigns
                        conducted by the Board and it will include the
                        feasibility of evaluating the programs of the Board
                        separately from other dairy promotion programs.
                        AMS’ target date for the evaluation contract is
                        February 27, 1999.

OIG Position            In order to reach management decision, AMS needs
                        to provide us with its final plan for evaluating the
                        program and the timeframe for the evaluation.




USDA/OIG-A/01001-3-CH                                                 Page 20
               CHAPTER 4 - CONTRACT PROCEDURES
               DID NOT COMPLY WITH REQUIREMENTS
                    OF THE ACT AND/OR ORDER


                        The Board, with limited AMS involvement, assumed the
                        authority to determine the activities it contracted for, the
                        vendors it used, and the price it would pay for the
                        services it received. In most cases, the Board
                        contracted for services without AMS approval. In
                        May 1997, we issued a Management Alert which
                        discussed this issue. In response, AMS and the Board
                        made changes which we do not believe fully address
                        our concerns as described below.

Finding No. 2           C     AMS allowed the Board to commit and/or expend
The Board Made                Program funds for 108 contracts, even though it
Contract Payments             had approved only 3 of these contracts prior to
That Were Not                 the contracts’ effective dates. AMS had not
Approved By AMS               provided proper oversight, as evidenced by the
                              numerous contracts, obligations, and payments
                              made by the Board without AMS’ approval. In the
                              absence of AMS constraints, the Board operated
                              the Program as it saw fit. The former Board
                              Chairman told us that the Board was responsible
                              for the milk promotion funds and that it could
                              spend the funds as it felt was appropriate.
                              Between December 10, 1993, and June 17, 1997,
                              the Board collected over $168 million in
                              processor assessments. During the same period,
                              the Board authorized the expenditure of
                              $127 million, 75 percent of the total assessments,
                              without AMS' approval.

                              Section 1999H(c)(8) of the Act and Section
                              1160.209(g) of the Order require that AMS
                              approve all contracts prior to the expenditure of
                              Program funds.



USDA/OIG-A/01001-3-CH                                                     Page 21
                        In a 1992 audit (01099-2-Ch) of a similar dairy
                        board, we reported deficiencies similar to those
                        identified here, and AMS agreed to correct them.
                        AMS agreed to discontinue retroactively
                        approving contracts. That board had entered into
                        contracts involving work done prior to AMS’
                        approval. It was agreed that this was acceptable
                        so long as there was no actual or implied
                        obligation of the board prior to AMS’ approval of
                        the contract. That board’s current procedure is to
                        submit all of its contracts and subcontracts to
                        AMS for review. We believe that AMS should
                        use the same policy and procedures for
                        overseeing the Fluid Milk Board.

                        The Board’s first contract with MIF was for the
                        period July 28, 1994, through December 31,
                        1996. This was the primary contract through
                        which the Program would operate and AMS did
                        not give its approval until 2 years and 8 months
                        later.    The Board signed this contract on
                        August 26, 1994; MIF signed it on September 19,
                        1994. The Board did not obtain AMS’ approval of
                        this contract until April 16, 1997; this was after we
                        had begun our audit and over 3 months after the
                        contract had expired. Although the contract
                        stated that, “MIF and Board agree that this
                        Agreement shall become effective only upon the
                        approval of this Agreement by the United States
                        Department of Agriculture," AMS did not approve
                        the contract until after we questioned whether the
                        contract had been approved. By that time, the
                        Board had paid MIF over $3 million and MIF, in
                        turn, had contracted with an advertising firm
                        which had spent over $123 million. AMS, the
                        Board, and MIF were all aware that, according to
                        the Act and the Order, no payments were
                        permitted until AMS had approved the contract.




USDA/OIG-A/01001-3-CH                                              Page 22
                        The subsequent contract between the Board and
                        MIF for the period January 1, 1997, through
                        December 31, 1998, was not signed by the Board
                        until February 3, 1997, or by MIF until February 5,
                        1997. Again, AMS did not approve this contract
                        until April 16, 1997, subsequent to the initiation of
                        our audit.

                        Even though it did not have the authority to do so,
                        MIF entered into an agreement with a major
                        advertising agency to provide most of the Board's
                        advertising, public relations, and research. The
                        agreement between MIF and the advertising
                        agency was effective on May 1, 1994, almost
                        3 months before the Board was seated on
                        July 27, 1994, and almost 3 years before AMS
                        post-approved the MIF contract on April 16, 1997.

                        MIF and the advertising agency entered into a
                        subsequent agreement for the period July 1,
                        1996, through December 31, 1998. AMS post-
                        approved this contract over 10 months later on
                        May 8, 1997, and for a different period (July 1,
                        1996, through July 31, 1998). None of the
                        $123 million paid to the advertising agency
                        should have been paid until AMS approved the
                        contracts.

                        Other expenditures made prior to AMS’ contract
                        approval included payments to Person A’s CPA
                        firm, an attorney for the Board (Person C), and for
                        promotional expenses.

                        We identified payments made for 108 contracts;
                        however, neither AMS, the Board, MIF, nor IDFA
                        could furnish us with copies of 37 of these
                        contracts. We have no evidence to cause us to
                        question the existence of the 37 contracts, many
                        of which were for individual celebrities to be



USDA/OIG-A/01001-3-CH                                              Page 23
                        photographed for the milk- mustache advertising
                        campaign. We found celebrity photographs and
                        other evidence that Program funds were
                        expended for Program-related expenses;
                        however, we could not locate the specific
                        contracts. We believe the Board's inability to
                        furnish the 37 contracts in question is further
                        evidence of its lack of internal controls over
                        contracting. Of the 71 contracts available for
                        review, 33 were not signed by at least one of the
                        contracting parties prior to the contracts' effective
                        dates. AMS had not approved 68 of the 71
                        contracts we reviewed prior to the contracts'
                        effective dates.

                        In its response to our Management Alert, dated
                        May 6, 1997, AMS stated that it would direct the
                        Board to cease payments for contracts,
                        subcontracts, and agreements that had not been
                        approved by AMS. AMS also stated that it would
                        require that the Board submit all contracts and
                        subcontracts for its review. This requirement was
                        included in the AMS letter to the Board
                        Administrator, dated August 15, 1997. However,
                        on September 17, 1997, AMS agreed with a
                        Board counterproposal that AMS’ prior approval
                        would only be required for nine contracts.

Recommendation          Require the Board to obtain AMS approval on all
No. 2a                  contracts, subcontracts, and agreements before
                        any funds are obligated or expended.

AMS’ Response           AMS agreed to revise its September 17, 1997,
                        contract approval process to require that it review
                        and approve all of the Board’s contracts and
                        subcontracts. Also, all of the Board’s contracts
                        and subcontracts are to contain language that no
                        payments are to be made prior to Secretarial
                        approval of the contract or subcontract. AMS did



USDA/OIG-A/01001-3-CH                                              Page 24
                            not agree to require the Board to submit sub-
                            subcontracts or purchase orders to AMS. AMS’
                            target date is September 30, 1998.

OIG Position                We did not recommend that purchase orders be
                            submitted for AMS’ review and approval.
                            However, we continue to believe that AMS should
                            obtain and approve all contract documents
                            (including    contracts,      subcontracts,     sub-
                            subcontracts, etc.,) for this Board, just as it does
                            for the dairy producers’ board. AMS needs to
                            develop criteria, based on the vulnerabilities, to
                            determine the extent of the review which it will
                            perform on each of the proposed contracts. To
                            reach a management decision, AMS needs to
                            provide us with its plan to implement a contract
                            review and approval process which will ensure
                            proper oversight of Board contracting activities.

Recommendation              Require the Board to establish a contract control
No. 2b                      system that will ensure compliance with the Act,
                            the Order, and AMS guidelines.

AMS’ Response               AMS agreed with this recommendation and will
                            work with the Board to develop a system to track
                            contracts, subcontracts, and sub-subcontracts by
                            September 30, 1998.

OIG Position                We agree with the proposed corrective actions.
                            To reach a management decision, AMS needs to
                            provide us with an outline or overview of the
                            system and Board concurrence to implement the
                            system.

Finding No. 3           C   We reviewed 71 contracts and subcontracts and
Contracts Did Not           determined that 61 did not contain specific
Include Certain             language required by the Act and the Order.
Required Language           Adequate oversight had not been provided by
                            AMS or the Board to ensure that these specific



USDA/OIG-A/01001-3-CH                                                 Page 25
                        required terms and conditions were included in all
                        contracts and subcontracts.         Because the
                        required language was not included in contracts,
                        the Board did not obtain title to some assets
                        developed with Program funds, records were not
                        required to be made available for audit, and
                        contractors were not informed that Secretarial
                        approval was required prior to contract execution.

                        Section 1999H of the Act states that the Board’s
                        duties include entering into contracts and
                        agreements with the approval of the Secretary.
                        Section 1160.209(g) of the Order states that any
                        such contract or agreement shall provide that the
                        plan or project shall be adopted upon approval of
                        the Secretary and that the Secretary periodically
                        may audit the records of the contracting party.
                        The guidelines for AMS oversight of commodity
                        research and promotion programs, signed by the
                        AMS Administrator on April 19, 1994, state that
                        “* * * AMS will require boards to formally notify
                        potential contractors that any work they
                        undertake prior to contract approval by USDA is
                        at their own risk, as boards are not financially
                        liable if the contract is not approved by USDA.”

                        Section 1160.505 of the Order states that any
                        patents, copyrights, trademarks, or publications
                        developed through the use of Program funds are
                        the property of the U.S. Government as
                        represented by the Board.

                        The Board’s contract with MIF, and MIF’s
                        subcontract with the major advertising agency,
                        contain the necessary language which states that
                        the Board will take title of said assets, etc.
                        However, the subcontract between the major
                        advertising agency and the photographer did not
                        have the necessary asset ownership language.



USDA/OIG-A/01001-3-CH                                            Page 26
                        We addressed this issue in our Management
                        Alert.

                        The Board has primarily used one photographer
                        for the highly recognized milk-mustache
                        advertising campaign. The contract allows for
                        the Board to have the right to use one photograph
                        taken during a photography session for
                        15 months. Any usage of that photograph after
                        the 15-month period requires that the
                        photographer receive an additional royalty. The
                        “customary and usual” royalty which the
                        photographer requires for such renewals is
                        $12,500 for 15 additional months.

                        About $129,000 has been expended for renewing
                        royalties on photographs for which the Board had
                        not taken title. If the advertising agency’s
                        contract with this photographer had contained the
                        required language, the Board would have owned
                        the photographs and no additional fee to the
                        photographer would have been required. Person
                        A’s CPA firm informed the Board of this
                        deficiency in a 1995 compliance review; however,
                        as of our audit fieldwork completion date, the
                        Board still had not required that contracts be
                        revised to ensure that the Board assumed its
                        rightful ownership of these assets.

                        On August 15, 1997, the Agricultural Marketing
                        Service (AMS) sent a memorandum to OGC
                        asking them to review a revised contract being
                        proposed for subsequent photography sessions.
                        AMS asked OGC to review the proposed contract
                        to determine if it was “legally sufficient.” OGC
                        concurred that the revised contract was “legally
                        sufficient.” In our discussions with OGC, we were
                        told that “legally sufficient” means requiring the
                        Secretary’s approval of budgets and contracts



USDA/OIG-A/01001-3-CH                                            Page 27
                        before payment can be made and requiring that
                        the Department have the authority to audit
                        contractors’ records. The question properly
                        phrased to OGC would have been whether the
                        proposed contract adequately addressed
                        requirements in the Order that the Board must
                        assume title of assets developed or acquired
                        using Board funds. During our audit fieldwork,
                        we concluded that the Board still has not taken
                        control of assets developed with Program funds.
                        The Board still has to pay royalties for
                        photographs after 15 months of usage. The
                        photographer still has control and possession of
                        the photographs and negatives which were
                        developed with over $2.7 million of Program
                        funds.

                        On February 10, 1998, OGC issued an opinion
                        which stated that the photographs were owned by
                        the photographer because the contract between
                        the photographer and the advertising agency had
                        no provisions regarding the Government’s
                        ownership of the property. If the contract for the
                        photographs provided that the ownership of the
                        photographs belonged to the Board, then the
                        owner would not be the photographer. OGC
                        further stated that the Board could negotiate
                        away its rights to the property if it was in its
                        interest to do so. We concluded that the contract
                        with the photographer should have had language
                        similar to language in the contract between MIF
                        and the advertising agency, which provided that
                        the Board would have ownership of the assets.
                        Appropriate oversight by AMS would have noted
                        the deficiency in this contract.

Audit Requirements      Although we were not denied access to any
                        records at contractors or subcontractors, 57 of
                        the 71 contracts, subcontracts, etc., we reviewed



USDA/OIG-A/01001-3-CH                                            Page 28
                        did not contain language requiring that records be
                        made available to USDA for audit. All contracts
                        should contain the mandatory language.

                        Without the required language, contractors and
                        subcontractors may not be aware that, without
                        Secretarial approval, the Board is not authorized
                        to pay expenses incurred under these contracts
                        and subcontracts, and that their records are
                        subject to review by USDA.

Recommendation          Require that contracts, subcontracts, etc.,
No. 3a                  contain all provisions mandated by the Act and/or
                        Order.

AMS’ Response           Other than the ownership issue, AMS did not
                        address the provisions mandated by the Act
                        and/or Order, such as the access to records for
                        audits and required Secretarial approval of all
                        contracts.

OIG Position            To reach management decision, AMS needs to
                        address all provisions mandated by the Act
                        and/or Order, including Secretarial approval of
                        the contracts and access to records by USDA.

Recommendation          Require the Board to obtain title and possession
No. 3b                  of all assets developed or acquired with Program
                        funds.

AMS’ Response           In response to Recommendation No 3a, AMS
                        disagreed with the Report’s interpretation as to
                        the ownership of copyrights. To prevent further
                        misinterpretation, the Board submitted a
                        proposed change to the Order that would clarify
                        the ownership issue. The public comment period
                        on the proposed rule ended June 22, 1998, and
                        AMS is preparing a final rule.




USDA/OIG-A/01001-3-CH                                            Page 29
OIG Position                While AMS disagreed with this recommendation,
                            its    action      taken     in      response        to
                            Recommendation No. 3a, preparation of an
                            amendment to the Order addressing the
                            ownership issue, resolves this issue. The
                            proposed amendment will require that an
                            agreement on ownership be reached between the
                            contracting parties and included in the contract.
                            However, this action was unnecessary because
                            the OGC opinion dated February 10, 1998, states
                            that the Board can negotiate ownership rights.
                            To reach a management decision, AMS needs to
                            provide its plan for assuring that it will require the
                            Board to document said negotiations and that the
                            results thereof will be included in its contracts.

Finding No. 4           C   The Board did not require contractors to provide
Progress Reports            deliverables specified in contracts and did not
Were Not Submitted          establish controls to prevent contractual
and Expense Limits          expenditure limits from being exceeded. In
Were Exceeded               addition, the Board’s Administrator submitted and
                            was paid for two claims for personal services that
                            exceeded contract limits.

                            The guidelines for AMS oversight of commodity
                            research and promotion programs, signed by the
                            AMS Administrator on April 19, 1994, state that
                            “* * * AMS will require boards to monitor contracts
                            for compliance with all provisions.”

                            The Board’s contracts with MIF required three
                            specific reports: Monthly progress and
                            performance reports, requests for the obligation
                            of funds, and overall evaluation reports for each
                            individual project administered by MIF. However,
                            MIF did not submit these reports to the Board.
                            These reports would enable AMS and the Board
                            to evaluate the effectiveness of the projects and
                            the progress being made on them.



USDA/OIG-A/01001-3-CH                                                    Page 30
                        The Board’s contract with MIF also required that
                        it provide secretarial support for the Board and its
                        officers. Since MIF did not have any employees,
                        it relied on IDFA employees to prepare and
                        maintain the official minutes of Board meetings.
                        The copy of the "official" minutes we obtained
                        from the IDFA employee differed from the copy of
                        the "official" minutes we obtained from AMS.
                        From our review of the Board minutes provided to
                        us, we could not determine which contracts and
                        budgets the Board had approved. The Board
                        Administrator told us that he was “reconstructing”
                        the official minutes and that the reconstructed
                        minutes would be available within "a couple of
                        months."       Given the passage of time and
                        conflicts within the copies of minutes already
                        prepared, we question how the Board’s
                        Administrator would be able to construct accurate
                        Board minutes from a period prior to his
                        appointment. Subsequent to the completion of
                        our audit fieldwork, we were advised that the
                        Board minutes would be recorded by the outside
                        legal counsel and the official copy would be
                        maintained by the Board’s Administrator.

                        The Board’s contract for its Administrator for the
                        period August 30, 1996, through June 30, 1997,
                        was for $75,000, including expenses, for 9 hours
                        of work per week. The Board’s Administrator
                        claimed and received two payments totaling
                        $14,381 in excess of the contract limits. These
                        overpayments indicated that the internal controls
                        were either inadequate or were not working. We
                        brought these overpayments to the attention of
                        AMS and the Board’s Administrator. The Board’s
                        Administrator then requested, and the Board and
                        AMS approved, a retroactive increase in the
                        contract limit subsequent to the end of the
                        contract period.



USDA/OIG-A/01001-3-CH                                             Page 31
Recommendation          Establish controls to ensure that (1) the Board
No. 4a                  requires contractors to fully comply with
                        contracts, (2) the Board does not allow
                        contractors to exceed contractual budget limits,
                        and (3) the Board requires submission of
                        deliverables.

AMS’ Response           AMS agreed with this recommendation. The
                        Board has reviewed and revised its contract
                        approval and payment system. Payments are
                        made after a thorough review by the Board
                        Administrator to ensure compliance. AMS has
                        established a system to ensure compliance and
                        receipt of deliverables. AMS also will require the
                        Board to submit a report within 60 days to ensure
                        provisions in contracts and subcontracts are
                        being met.

OIG Position            We agree with the proposed corrective action.
                        However, to reach management decision, we
                        need to be advised of the specifics of the
                        proposed plan for the Board’s system to verify
                        payments and deliverables. We also need more
                        specific information on how AMS will review and
                        test the Board’s contract controls and not rely
                        solely on self-certifications provided by the
                        Board. The value of a one-time report prepared
                        by the Board stating that provisions in its
                        contracts and subcontracts are being met is not
                        sufficient.

Recommendation          Discontinue retroactive approval of the Board’s
No. 4b                  contracts, subcontracts, and amendments.

AMS’ Response           AMS agreed that it will notify the Board that
                        contracts, subcontracts, etc., should contain
                        provisions indicating that any work performed
                        prior to AMS’ approval is at the risk of the




USDA/OIG-A/01001-3-CH                                            Page 32
                            contractor. This is to be accomplished by
                            September 30, 1998.

OIG Position                To reach a management decision, we need a
                            copy of the AMS notification to the Board.

Finding No. 5           C   Some Board contracts and subcontracts had
Contract Terms Were         provisions that were not being complied with. As
Not Being Met               a result of the material contract breaches, either
                            party to the contracts could terminate them.
                            Consequently, the Board might not be able to
                            enforce contract terms, and important
                            deliverables, advertising campaigns, and
                            research analyses might not be provided.

                            MIF’s subcontract with the advertising agency
                            requires that MIF establish and maintain a
                            reserve for the potential payment of an incentive
                            commission of approximately $350,000. This
                            incentive commission was to be paid if milk sales
                            increased over the previous year because of the
                            advertising campaign. MIF has never paid an
                            incentive commission and has never established
                            such a reserve account. Similarly, the Board has
                            not established a reserve account to reflect this
                            liability.

                            MIF’s contract with the Board requires that MIF
                            pay its subcontractors and claim reimbursement
                            from the Board. As these expenses increased,
                            rather than paying the expenses and seeking
                            reimbursement, MIF began submitting all
                            invoices from the advertising agency directly to
                            Person A’s CPA firm for payment. The procedure
                            changed again in 1997, at which point the
                            advertising agency began sending its invoices
                            directly to Person A’s CPA firm, while submitting
                            duplicates to MIF for approval.




USDA/OIG-A/01001-3-CH                                                Page 33
Recommendation              Require the Board to enforce contractors’
No. 5                       compliance with the terms of their contracts.

AMS’ Response               AMS did not address the issues developed in this
                            finding.

OIG Position                We cannot reach management decision until
                            AMS adequately addresses the establishment of
                            the contingent liability and the payment of bills.

Finding No. 6           C   The Board had not followed good business
The Board Used Sole-        practices by competitively negotiating for
Source Contractors          contractual services. There was no evidence
With No Evidence of         that the Board made an analysis to ensure that it
Other Contractors           was obtaining its contracted goods and services
Being Considered            in the most cost-effective manner. For example,
                            we found that a subcontract for the Board’s
                            advertising and public relations activities with a
                            major advertising agency was let without
                            competition. Of the Board’s $131 million in
                            Program expenses, $123 million (93 percent of
                            Program expenses) was spent with this
                            advertising agency. As a result, the Board may
                            have overpaid for services and may not be
                            obtaining the objective, professional opinions and
                            services it expects to receive.

                            In a 1992 audit of another dairy board
                            (01099-2-Ch), we reported that goods and
                            services were being obtained without competitive
                            bidding. We recommended that AMS ensure that
                            the board obtain goods and services in the most
                            cost-effective manner, and AMS agreed in
                            principle with this recommendation.

                            The Board's largest contract is for MIF to handle
                            its day-to-day operations. However, there is no
                            evidence that the Board solicited bids, or
                            considered other vendors for this service. Since



USDA/OIG-A/01001-3-CH                                                Page 34
                        Program inception, the Board has paid MIF over
                        $3 million for its services. We believe the Board
                        should have explored other options for obtaining
                        these services rather than issuing a contract
                        without competition.

                        We were recently advised that, according to the
                        Order, the Board was required to select MIF to
                        carry out Program functions during the initial
                        fiscal period. Our review of the implementing
                        regulations disclosed that they allowed, but did
                        not require, the Board to select MIF for the initial
                        30-month fiscal period. The order required that if
                        an organization such as MIF were selected, the
                        Board had to determine that its selection was
                        “practicable” and also obtain the approval of the
                        Secretary. We found no evidence that an
                        evaluation was done to determine whether the
                        selection of MIF was practicable. In addition, the
                        Board did not obtain the Secretary’s approval for
                        its contract with MIF until April 16, 1997, which
                        was after the initial fiscal period had expired.
                        Even after the initial fiscal period, there is no
                        evidence that the Board considered any other
                        options for obtaining these services.

                        Most of the Board’s advertising and public
                        relations activities ($123 million) are handled by
                        a large worldwide advertising agency. Again, we
                        found no evidence that the Board considered any
                        other advertising agency before this contract was
                        executed or renewed. In June 1998, we were
                        provided information which stated that the Board
                        considered other advertising agencies before
                        selecting the contractor used. The evidence
                        provided was in the form of a letter on a dairy
                        company letterhead to MIF dated March 15,
                        1991, discussing potential advertising agencies
                        which MIF should consider. However, this is



USDA/OIG-A/01001-3-CH                                             Page 35
                        irrelevant because the Secretary did not appoint
                        the first National Fluid Milk Processor Promotion
                        Board until June 6, 1994.

                        It was recently pointed out that Board minutes
                        dated August 30, 1994, confirmed the Board’s
                        selection of the advertising agency. However,
                        the minutes indicated that representatives from
                        only one advertising agency were present and
                        there is no documentation of cost data being
                        presented for analysis. Those minutes indicate
                        that the Board approved the advertising plans
                        which the advertising agency had developed. No
                        evidence was provided which showed that the
                        Board considered awarding the advertising
                        contract to other advertising agencies.

                        When the Board wanted to develop an Internet
                        WEB site, the advertising agency had one of its
                        wholly-owned subsidiaries develop the site. The
                        advertising    agency     provided      us    with
                        documentation that requests for proposals were
                        sent to four prospective WEB site developers,
                        including their own wholly-owned subsidiary.
                        Three, including the subsidiary, responded.
                        However, based on our review of the information
                        provided, the advertising agency gave insider
                        information to its subsidiary enabling it to be
                        awarded the contract. It was clear that there was
                        no competition for the contract. The advertising
                        agency instructed its subsidiary, after the due
                        date for submitting proposals and after the other
                        prospective vendors submitted their proposals,
                        on how much money was available and how to
                        proceed to revise its initial proposal. (See
                        exhibit E.) Further correspondence from the
                        advertising agency to its subsidiary dated
                        June 13, 1996, advised that, “We have $225,000
                        in the budget that must cover all of (the



USDA/OIG-A/01001-3-CH                                            Page 36
                        subsidiary's) professional time and out-of-pocket
                        expenses for creating and maintaining the Web
                        site during Phase 1 (launch), Phase 2 and
                        Phase 3.” Essentially, the advertising agency set
                        the contract amount.

                        The Board has three contracts (all of which have
                        been renewed) with the Board’s Administrator
                        (Person A) and/or firms in which he has an
                        interest. In addition to its contract for his services
                        as Board Administrator, the Board has another
                        contract with Person A’s CPA firm for overseeing
                        the collection of assessments and providing
                        accounting services for the Board. Person A’s
                        CPA firm also has a contract to perform
                        compliance reviews of the Board's major
                        contractors:       MIF, IDFA, and the major
                        advertising agency. These close relationships
                        raise questions about the independence of the
                        various firms/organizations involved and whether
                        the Board paid a fair price for the services
                        obtained. We were not provided documentation
                        which showed that the Board considered any
                        other contractors to perform these services or
                        that these fees were compared to fees charged
                        by other firms.

Recommendation          Require the Board to discontinue awarding sole-
No. 6                   source contracts, subcontracts, etc., and
                        establish guidelines for awarding contracts to
                        ensure that competition is sought and that
                        contracted goods and services are obtained in
                        the most cost-effective manner.

AMS’ Response           AMS      agrees   in  principle     with   this
                        recommendation and will notify the Board that it
                        should document a competitive process to select
                        contractors to carry out the program. The
                        selection should be based on the Board’s



USDA/OIG-A/01001-3-CH                                               Page 37
                            judgment of costs versus benefits and of other
                            relative factors and considerations, but will not be
                            required to select the lowest bidder.

OIG Position                To reach a management decision, we need the
                            AMS notification to the Board requiring a
                            competitive process for contracts. The process
                            must include documentation of selection criteria
                            and require an explanation of cost and technical
                            evaluation for awards.

Finding No. 7           C   The Board’s financial services contractor
Financial Statements        presented financial statements that did not
Were Incorrect              accurately reflect the Board’s financial condition,
                            and the Board’s contract with its independent
                            auditor did not require audits to be performed
                            using generally accepted Government auditing
                            standards (GAGAS). AMS required that the
                            Board audit be performed using generally
                            accepted auditing standards. AMS did not
                            require that the audit include tests for compliance
                            with laws and regulations.

                            The Board presented financial statements that
                            did not reflect the actual financial condition of the
                            Board. This was caused by misrepresentations
                            made by the Board's financial services
                            contractor, Person A. Had the Board disclosed in
                            its statements that it was spending Program
                            funds without the Secretary’s approval, we
                            question whether the readers of those statements
                            would have let the Board continue to make
                            payments without this approval.            Had the
                            independent auditor known that the Board had
                            not secured AMS contract approval prior to
                            making payments, it would have changed the
                            results of its audit reports. Representatives of
                            the independent auditor told us they would have




USDA/OIG-A/01001-3-CH                                                  Page 38
                        issued a qualified opinion or, at a minimum, they
                        would have disclosed these irregularities.

                        The financial statements as of April 30, 1996, and
                        as of March 31, 1995, contained material
                        omissions and questionable statements that, in
                        the aggregate, were significant enough to affect
                        the decisions of its users, including the Secretary,
                        members of the U.S. Congress, and milk
                        processors. These financial statements were in
                        the "USDA Report to Congress on the National
                        Dairy Promotion and Research Program and the
                        National Fluid Milk Processor Promotion
                        Program," dated July 1, 1997, and July 1, 1996.
                        Examples of material omissions and misleading
                        statements include the following.

                              The contingent liability of over $350,000
                              for the incentive commission due to the
                              advertising agency was omitted from the
                              balance sheet. (See Finding No. 5.)

                              The notes to the financial statements did
                              not disclose the $127 million in
                              expenditures made without the Secretary’s
                              approval or any of the related-party
                              transactions. (See Findings Nos. 2 and 6.)

                        In management representation letters dated
                        June 8, 1995, and August 9, 1996, to the outside
                        CPA firm, the financial services contractor
                        (Person A’s CPA firm) to the Board made
                        questionable assertions regarding internal
                        controls and compliance with the Act and the
                        Order. He (Person A) asserted that:

                              The Board had complied with all aspects of
                              contractual agreements that would have a
                              material effect on the financial statements



USDA/OIG-A/01001-3-CH                                             Page 39
                              in the event of noncompliance. However,
                              although required by language within the
                              contracts and/or the Act and the Order, we
                              determined that AMS had not approved 68
                              of the 71 contracts available for our review.

                              No payments had been made which
                              exceeded the AMS-approved contract
                              amounts. However, we found the Board
                              Administrator’s contractual limit of $75,000
                              for the period of August 30, 1996, through
                              June 30, 1997, was exceeded in two
                              consecutive months by a total of $14,381.

                              All contracts contained the key elements
                              required by the Act and the Order. We
                              concluded that several key elements were
                              omitted from contracts, such as USDA's
                              right to audit contractor records and the
                              requirement that expenses could not be
                              paid prior to the Secretary's approval, etc.
                              (See Finding No. 3.)

                        The Board did not require audits of its records to
                        be performed using GAGAS; AMS did not require
                        that audits be conducted using GAGAS. As a
                        result, the audits did not reflect the actual
                        financial condition of the Board.

                        Section 1999H(h)(2) of the Act requires the
                        Board’s books and records to be audited by an
                        independent auditor at the end of each fiscal year
                        and to submit the audit to the Secretary.
                        Paragraph 1.1 of the 1994 revision of the
                        Government Auditing Standards requires non-
                        Federal auditors to comply with GAGAS when
                        they audit Federal programs. These standards
                        pertain to auditors’ professional qualifications and
                        the quality of audit effort. Paragraph 4.15 states



USDA/OIG-A/01001-3-CH                                             Page 40
                        that auditors should obtain an understanding of
                        the possible effects on financial statements of
                        laws and regulations that are generally
                        recognized by auditors to have a direct and
                        material effect on the determination of amounts in
                        the financial statements. Paragraph 4.18 states
                        that the term “noncompliance” has a broader
                        meaning than illegal acts. “Noncompliance”
                        includes not only illegal acts, but also violations
                        of provisions of contracts. Using GAGAS,
                        auditors have the same responsibilities for
                        detecting material misstatements arising from
                        other types of noncompliance as they do for
                        detecting those arising from illegal acts.
                        Paragraph 4.19 states that auditors should
                        design the audit to provide reasonable assurance
                        of detecting material misstatements resulting
                        from direct and material noncompliance with
                        provisions of contracts.

                        None of the audits of financial statements issued
                        since the inception of the Program have been
                        performed using GAGAS. The Board contracted
                        for audits of its financial statements for the fiscal
                        periods ending June 30, 1997, April 30, 1996,
                        and March 31, 1995; however it did not require
                        that GAGAS be used. At the time of our review,
                        we found no evidence that AMS had approved
                        any of the audit contracts.

                        The Board’s agreement with Person A’s CPA firm
                        to conduct compliance audits of the Board’s two
                        largest contractors does not require that the
                        audits be conducted using GAGAS, as they
                        should. AMS approved these contracts on
                        July 11, 1997, at a funding level not to exceed
                        $28,000.     Person A’s firm conducted two
                        contractor compliance audits in 1995 that also did
                        not comply with GAGAS.



USDA/OIG-A/01001-3-CH                                              Page 41
Recommendation          Ensure that the Board’s audited financial
No. 7a                  statements are issued using GAGAS.

AMS’ Response           AMS did not agree to reissue past financial
                        statements under GAGAS, but agreed to have
                        the Board’s next financial audit conducted under
                        GAGAS.

OIG Position            We agree with AMS’ corrective actions to require
                        the Board’s next audit to be conducted using
                        GAGAS. To reach a management decision, we
                        need a copy of the notification to the Board that
                        all future audits will be performed using GAGAS.

Recommendation          Establish controls to ensure that future
No. 7b                  management representation letters addressed to
                        outside CPA firms correctly state the status of the
                        Board's financial, contractual, and legal position.

AMS’ Response           AMS agreed to this recommendation by requiring
                        that the Board’s Chairman and Administrator both
                        sign the management representation letters to
                        CPA firms regarding the Board’s financial,
                        contractual, and legal position. In addition, AMS
                        will request copies of such letters for review.

OIG Position            We agree with AMS’ proposed corrective actions.
                        To reach management decision, AMS needs to
                        provide us with the notification to the Board
                        establishing this requirement.

Recommendation          Require the Board to ensure that contractor
No. 7c                  compliance audits are conducted using GAGAS.

                        AMS agreed to this recommendation by advising
AMS’ Response           the Board Chairman and the Board Administrator
                        that a GAGAS audit will be required for the fiscal
                        year ending June 30, 1998. AMS also is




USDA/OIG-A/01001-3-CH                                             Page 42
                        reviewing its policy requiring audits for all
                        research and promotion boards.

OIG Position            AMS agreed that it would require that its fiscal
                        year 1998 audit be performed using GAGAS;
                        however, it did not address the issue of
                        compliance audits being performed using
                        GAGAS. To reach management decision AMS
                        needs to provide us with a copy of its notification
                        to the Board establishing this requirement for all
                        future compliance audits.




USDA/OIG-A/01001-3-CH                                             Page 43
EXHIBIT A - AMS’ RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/01001-3-Ch                       Page 44
EXHIBIT A - AMS’ RESPONSE TO THE DRAFT REPORT




      See exhibit B for OIG’s comments relating to Notes A-P.




USDA/OIG-A/01001-3-Ch                                           Page 45
EXHIBIT A - AMS’ RESPONSE TO THE DRAFT REPORT




     See exhibit B for OIG’s comments relating to Notes A-P.




USDA/OIG-A/01001-3-Ch                                          Page 46
EXHIBIT A - AMS’ RESPONSE TO THE DRAFT REPORT




      See exhibit B for OIG’s comments relating to Notes A-P.




USDA/OIG-A/01001-3-Ch                                           Page 47
EXHIBIT A - AMS’ RESPONSE TO THE DRAFT REPORT




     See exhibit B for OIG’s comments relating to Notes A-P.




USDA/OIG-A/01001-3-Ch                                          Page 48
EXHIBIT A - AMS’ RESPONSE TO THE DRAFT REPORT




     See exhibit B for OIG’s comments relating to Notes A-P.




USDA/OIG-A/01001-3-Ch                                          Page 49
EXHIBIT A - AMS’ RESPONSE TO THE DRAFT REPORT




     See exhibit B for OIG’s comments relating to Notes A-P.




USDA/OIG-A/01001-3-Ch                                          Page 50
EXHIBIT A - AMS’ RESPONSE TO THE DRAFT REPORT




      See exhibit B for OIG’s comments relating to Notes A-P.




USDA/OIG-A/01001-3-Ch                                           Page 51
EXHIBIT A - AMS’ RESPONSE TO THE DRAFT REPORT




      See exhibit B for OIG’s comments relating to Notes A-P.




USDA/OIG-A/01001-3-Ch                                           Page 52
EXHIBIT A - AMS’ RESPONSE TO THE DRAFT REPORT




      See exhibit B for OIG’s comments relating to Notes A-P.




USDA/OIG-A/01001-3-Ch                                           Page 53
EXHIBIT A - AMS’ RESPONSE TO THE DRAFT REPORT




     See exhibit B for OIG’s comments relating to Notes A-P.




USDA/OIG-A/01001-3-Ch                                          Page 54
EXHIBIT A - AMS’ RESPONSE TO THE DRAFT REPORT




     See exhibit B for OIG’s comments relating to Notes A-P.




USDA/OIG-A/01001-3-Ch                                          Page 55
EXHIBIT B - OIG’S COMMENTS RELATED TO AMS’ WRITTEN
           RESPONSE


Following are excerpts from AMS’ written response (italicized) which OIG feels
compelled to address. (The AMS response is in exhibit A. Because they were so
volumnious, we did not include copies of all of the attachments provided with AMS’
response.) The notes below correspond to the marked sections in exhibit A.

NOTE A: “To satisfy the concerns of the OIG, AMS will institute additional changes.”

AMS should not institute changes simply to satisfy OIG. Any changes AMS makes
should be to assure that the Program is operated in conformity with the requirements
of the Act and the Order. Concerns expressed by OIG evolved from AMS’ and the
Board’s nonconformity with requirements in the Act and the Order.

NOTE B: “Throughout the audit process and in particular since the Alert, AMS has
repeatedly informed the OIG of changes instituted to address the OIG’s concerns.
Nevertheless, the initial Report truncates its review 1 month after the Alert. We
wonder why the OIG was seemingly uninterested in evaluating current oversight and
judging both current practices and the adequacy of AMS’ reaction to the Alert. The
second draft of the Report does note these changes, but continues to base many of
its recommendations on past practices. Because a Management Alert is to spark
action, it is disappointing that the Report does not fairly evaluate the responses taken
by AMS and the Board.”

Our audit report, conclusions, and recommendations, by necessity, must reflect the
results of our audit testing. We acknowledged unconfirmed corrective actions
reported to have been taken, when appropriate.

We did not end our review 1 month after the Alert. Our audit covered the period
December 1993 through June 1997; however, our fieldwork continued for several
more months. We have recognized changes reportedly made by AMS which we
reported as unverified. We have requested many documents which would have had
an impact on our audit report; however, these documents have not been provided.
We requested eight items from the Board Administrator on June 23, 1997, however,
he still has not provided those items. These items included: Program evaluations



USDA/OIG-A/01001-3-Ch                                                        Page 56
EXHIBIT B - OIG’S COMMENTS RELATED TO AMS’ WRITTEN
           RESPONSE


performed by MIF from 1994 through 1997; authorization request forms from 1994
through 1997; and monthly summary reports of the services provided by MIF from
1994 through 1997. The Board Administrator also has not provided us with
documents we requested on June 27, 1997: (1) The officially approved minutes of
Board meetings and (2) justification of the costs for the photography sessions and
for the development and maintenance of the Board’s Web site. Although an official
of the Board Administrator’s office advised us that all requested items would be
provided as soon as possible, we still have not received them. The Board
Administrator had an obligation to us to either provide the documents we requested
or to advise that the documents did not exist; he did neither.

AMS makes the point throughout its written response (Exhibit A), and in previous
meetings held to discuss the audit results, that we did not properly reflect corrective
actions taken as a result of our Management Alert, which was issued in May 1997.
We acknowledged many actions reportedly made by AMS on pages 5 and 6 and in
other places throughout our report.

One of the actions AMS reportedly made in response to our Management Alert,
which we recognized, was a change in AMS personnel. During our audit, AMS did
make a personnel change; however, when we asked the reason for the change,
officials told us that the change was unrelated to our audit. Given the contradictory
statements AMS officials have made, we still do not know why changes in personnel
were made.

We also acknowledged that a new contract review process had been implemented;
however, with the information provided, we were unable to fully assess what the
review process is. For example, in response to our Management Alert, AMS agreed
on May 19, 1997, to “ * * * require that the Board submit all contracts and
subcontracts to the Department for review.” AMS revised its policy again on
September 17, 1997, which included a review and approval of about 9 contracts. In
its July 24, 1998, response to our official draft report, AMS stated that it “* * * will
revise its September 17, 1997, contract approval process with the Board to require
that, in addition to all Board contracts, all contracts of the Board’s contractors be
reviewed and approved by AMS.” We agreed with the change AMS made in


USDA/OIG-A/01001-3-Ch                                                        Page 57
EXHIBIT B - OIG’S COMMENTS RELATED TO AMS’ WRITTEN
           RESPONSE


response to our Management Alert; however, we advised AMS that we did not agree
with the changes made on September 17, 1997. We also disagree with the
proposed revision, as stated in AMS’ July 24, 1998, memorandum, because it does
not include all contracts, subcontracts, sub-subcontracts, etc., which obligate
Program funds.

We asked for the officially approved minutes of Board meetings on June 27, 1997,
and were told that they would be provided as soon as possible. During the audit we
observed two separate sets of Board minutes which contained conflicting
information. The Board Administrator advised us that he was “reconstructing” the
Board minutes and that he would provide us copies within a few months. We have
not acknowledged corrective action taken in this area because we still have not
received the copies which AMS advised us they have reviewed. We question how
AMS can know that the minutes are accurate and complete when the copies AMS
provided to us conflicted with copies provided by Board officials.

Other unconfirmed actions taken or proposed include: Hiring a full time employee
(Board Administrator), increased time and responsibilities for the current part-time
Administrator, revised contracting requirements (language and approval), and
revised methods regarding preparation of minutes of Board meetings.

NOTE C: “The Report criticizes the Board for not owning the photographs taken by
a renowned photographer. However, a legal opinion from the Office of the General
Counsel * * * states that Federal copyright law holds that the Board owns the
copyright to the advertisement while the artist retains the copyright to all
photographs. Though AMS has repeatedly shared this opinion with the OIG, the
Report steadfastly avoids this conclusion. When the law is correctly interpreted, the
Board contracted for exactly what it wanted and what it got--photographs to use in
its milk mustache advertising campaign.”

The real issue here is that, because of the lack of proper oversight by AMS and the
Board, a sub-subcontract with a photographer was written so that the Board’s
interest in the copyrights on the photographs to be produced was not properly



USDA/OIG-A/01001-3-Ch                                                     Page 58
EXHIBIT B - OIG’S COMMENTS RELATED TO AMS’ WRITTEN
           RESPONSE


protected. The Board’s contract with MIF properly addresses property ownership,
as does MIF’s contract with the advertising agency. However, the advertising
agency’s contract with the photographer did not expressly provide that the
photographs would be considered “work made for hire” nor that the Board would own
copyrights to the photographs produced. Because of these contract irregularities,
the photographer owns the copyrights to the photographs. The contract for the
photographer contained all of the key elements of a “work made for hire.” According
to the OGC opinion, whenever there is a “work made for hire,” the contractor can
reserve for itself the copyrights to works produced. Had the contract with the
photographer been written correctly, the Board would have owned the copyrights to
the photographs.

We did not disregard OGC’s opinion. It is evident that the opinion says that, as the
contract was written, the photographer owns the copyrights to the photographs.

The February 10, 1998, OGC opinion states that “ * * * the agreement with (the
photographer) did not expressly provide that the photographs would be considered
a ‘work made for hire.’ If (the photographer) and the Board (through its advertising
agency), had expressly provided that the photographs were to be ‘work made for
hire,’ then the copyright to them would not automatically belong to (the
photographer).” If the photographer and the Board (through MIF and the advertising
agency) had expressly agreed that the Board would own the copyright to the
photographs, the Board would not have had to pay the additional royalty rights
totaling $129,000 for the use of the photographs. This is a classic example of why
AMS must oversee the entire contracting process. Had the advertising agency’s
contract with the photographer been properly written, in compliance with the
contracts between the Board and MIF, and between MIF and the advertising agency,
then the Board would have owned the copyrights to the photographs.

We also question why the Board did not enforce its contract with MIF regarding
property ownership. This contract, for the period of July 28, 1994, through
December 31, 1996, and renewed through December 31, 1998, states that,
“Ownership of materials or assets acquired with Board funds shall be the property
of the Secretary of Agriculture as represented by Board and MIF shall take


USDA/OIG-A/01001-3-Ch                                                     Page 59
EXHIBIT B - OIG’S COMMENTS RELATED TO AMS’ WRITTEN
           RESPONSE


reasonable steps to protect that ownership.” MIF did not fulfill its contractual
responsibilities to the Board by taking the steps necessary to protect the Board’s
interest in the copyrights to the photographs. We also question why the Board’s
legal counsel is not pursuing legal action against MIF because of its failure to
properly protect the Board’s interest in the copyrights.

The OGC opinion also stated that the Order does not limit the Board’s “* * * ability
to contract away any of its rights to the property that it does not own. This means
that the government may, in its negotiations, transfer to the contractor any or all of
its patents, copyrights, inventions, trademarks and publications, if it is in the
government’s interest to do so.” There is no evidence of any negotiations for the
ownership of copyrights to the photographs.

AMS raised the issue that, had the Board wanted to own the copyright to the
photographs, there would have been an extra cost. Although we repeatedly asked
for evidence of negotiations as to the ownership of the copyrights to the
photographs, neither AMS, the Board, nor Board contractors provided such
evidence. Because of this, we do not understand how AMS can now conclude what
the photographer would have charged if the contract had specified that the Board
would retain ownership of the copyrights. In our opinion, the photographer owns the
copyrights to the photographs because AMS and the Board failed to meet their
responsibility to the milk processors who fund this program.

We consulted with others in the dairy advertising industry about the costs involved
with these photography contracts. Those officials advised that the photography
costs were very high and that, considering the unusually high cost of the professional
fees paid to this photographer, they felt that, had the Board negotiated effectively,
it could have obtained ownership rights to the copyrights. We do not agree with
AMS’ statement that the Board really “* * *bought what is needed to produce the
advertisement.” If it had, why did it later pay additional royalty rights totaling about
$129,000?




USDA/OIG-A/01001-3-Ch                                                        Page 60
EXHIBIT B - OIG’S COMMENTS RELATED TO AMS’ WRITTEN
           RESPONSE


Furthermore, the Board Administrator, under his CPA firm’s contract with the Board
to perform contract compliance audits, notified the Board Treasurer in a report dated
July 13, 1995, that “* * *the agreement with the photographer was not signed. * * *
Also, we noted that the photographs are owned by the photographer, pursuant to the
terms of Section 14 of the Agreement. This provision appears to violate the terms
of the Act and the Order.” This same 1995 report further states, “We were unable
to determine if the agreements were reviewed/approved by the United States
Department of Agriculture.” The recommendations in this 1995 report were “* * * that
the ownership issue of the photographs be satisfactorily resolved. We recommend
that the agreement with the photographer be signed by both parties. We
recommend that the issue of USDA contract/agreement approval/review of
agreements within the subcontract between MIF and (the advertising agency) be
resolved.” These issues were never addressed by AMS or the Board.

NOTE D: “The Report also claims to have found no evidence that AMS or the Board
separately evaluated the effectiveness of its programs * * *. In this regard, it is
important to note that the statute that requires evaluation also mandates that it be
‘carried out . . . in conjunction with the evaluation of the National Dairy Promotion and
Research Board . . . .’ (Fluid Milk Promotion Act of 1990, as amended (Act), 7
U.S.C. Section 6407(m)). Additionally, the Economic Research Service (ERS),
which evaluates the effectiveness of the fluid milk advertising of this Board and the
National Dairy Promotion and Research Board, has stated that it is impractical to
segregate the two programs promoting fluid milk consumption. AMS provided this
letter * * * to the OIG. The Report also ignored the third-party evaluations the Board
has initiated.”

Section H(m) of the Act states “The Secretary shall provide annually for an
independent evaluation of the effectiveness of the fluid milk promotion program
carried out under this subtitle during the previous year, in conjunction with the
evaluation of the National Dairy Promotion and Research Board established under
section 113(b) of the Dairy Production Stabilization Act of 1983 * * *.” We believe
this requires an independent evaluation of each dairy program and that the term “in
conjunction” indicates simultaneous evaluations, not one united evaluation.



USDA/OIG-A/01001-3-Ch                                                         Page 61
EXHIBIT B - OIG’S COMMENTS RELATED TO AMS’ WRITTEN
           RESPONSE


The policy of the Program, according to Section 1999B(b) of the Act, is to carry out
an effective program of promotion, research, and consumer education. Unless an
independent evaluation of this program is performed, it cannot be determined
whether the purpose of the Program has been fulfilled and the use of the
assessments justified.

The memorandum dated April 15, 1998, from ERS to AMS did not use the term
“impractical” in relation to separate studies of the two dairy campaigns. Rather, ERS
said “Any current attempt to evaluate the two campaigns separately would require
advertising variables that were unique to each campaign and based upon consumer
responses to each program. Such a model would require sampling and estimation
procedures which are beyond the time and resources of the (ERS) Evaluation
Committee.”

The AMS response stated that the Report ignored third-party evaluations the Board
had initiated. The Board’s unsigned draft letter to AMS dated June 16, 1998,
included a list of various evaluation activities/studies/research activities which
supposedly had been performed. During our review, we asked the Board
Administrator to provide information and copies of any evaluations or studies or
similar type reports conducted that would determine the effectiveness of the
Program’s promotion activities. None were provided. Rather, he stated that no such
study had been performed and that he did not believe the Board or anyone else
wanted to know whether the Board’s activities had increased fluid milk consumption.

NOTE E: “Similarly, the Report claims that the Board failed to seek bids for its web
site, despite the 1997 memorandum * * * the Board provided the OIG detailing its
solicitation and evaluation of bids * * *. ”

The information contained in this memorandum was not provided to us during the
audit. We have been provided two versions of the July 25, 1997, memorandum
referenced by AMS. During the audit, the advertising agency sent us the original
signed copy of that memorandum. (See exhibit C.) That memorandum did not
provide details of the Board’s solicitations or how the Board evaluated the bids. In
its response to the official draft audit report, AMS provided us a copy of that same


USDA/OIG-A/01001-3-Ch                                                     Page 62
EXHIBIT B - OIG’S COMMENTS RELATED TO AMS’ WRITTEN
           RESPONSE


memorandum. (See exhibit D.) Attachments to the memorandum provided by AMS
differed from the attachments sent directly to OIG by the advertising agency. We
noted that the memorandum provided by AMS was a copy of the courtesy copy sent
to the Board Administrator. We have been given no explanation for the substantial
differences in the two memorandums. It is clear, however, that there was no
competition for this contract. The advertising agency went to its subsidiary and told
them how much money was available and how to proceed in revising its proposal.

Neither of the memorandums referenced above, nor any other documentation
provided during the audit, contained evidence of an evaluation of the bid proposals
for the development and maintenance of the Board’s WEB site. The documentation
provided to us indicated that the advertising agency selected four potential vendors
to bid on this project. One of the four did not respond. The other three vendors, one
of which was a wholly-owned subsidiary of the advertising agency, submitted
proposals. We requested copies of the three bids and were provided copies of bids
totaling [           ], $225,000, and [         ]. The bids for [                   ]
were from outside vendors and were dated April 29, 1996, the due date specified in
the request for proposals. The $225,000 bid from a wholly-owned subsidiary of the
advertising agency was prepared after the due date for the bid submissions.

As stated in this report, we obtained a memorandum dated May 7, 1996, from the
advertising agency to its wholly-owned subsidiary that detailed the amount in the
budget for creating and maintaining the WEB site. (See exhibit E.) This
memorandum stated that, “* * * we were able to position (the subsidiary) as the best
choice for developing the Milk Web site.” It also stated, “* * * the MilkPEP board
approved $225,000 for the design and launch of the site AND subsequent updates
through June 1997. Please base your revised proposal on a $225,000 budget.”
Note that these instructions from the advertising agency to its subsidiary were after
the closing date for bid submissions. This memorandum further stated, “Finally, an
internal issue: we must have your assurance that this project will be given the
utmost priority in order to be up and running by the program’s official launch date
* * *. In your original proposal, you noted that you could not make that timing. * * *
Please let me know when we can expect to receive your revised proposal to forward
to (MIF).” OIG asked for, but never received, the original bid proposal. In our


USDA/OIG-A/01001-3-Ch                                                      Page 63
EXHIBIT B - OIG’S COMMENTS RELATED TO AMS’ WRITTEN
           RESPONSE


opinion, acceptance of the revised bid proposal from the subsidiary is a clear
violation of competitive bidding practices.

It is clear that there was no meaningful competition for the development and
maintenance of the Board’s WEB site. The advertising agency assured that its
subsidiary would be selected as the contractor by providing insider information to its
subsidiary and accepting the bid proposal after the due date.

NOTE F: “ * * * the Report’s discussion of sole-source contracting seems to assume
that the Federal Acquisition Regulations apply to promotion programs. In response
to our inquiry on the subject, OGC has provided a legal opinion * * * stating that as
a matter of law, promotion programs are not bound by these restrictions. This OGC
opinion was made available to OIG.”

We did not recommend that the Board comply with the Federal Acquisition
Regulations. We first received the OGC opinion, dated June 18, 1998, as an
attachment to AMS’ response to us dated July 24, 1998. This OGC opinion states
that, “The OIG draft report * * * makes no implication that Federal procurement laws
apply to the Board. * * * The draft report addresses the wisdom of the Board’s
business practices and Government oversight of those practices.” This same OGC
opinion further states, “* * * the Secretary has an oversight responsibility for
contracts entered into by the Board. The Secretary could use this oversight role to
apply the policies underlying these Federal statutes and regulations to the Board’s
contracting process.”

Again, we did not state that the Federal Acquisition Regulations apply to this
Program. We continue to recommend that AMS require the Board to discontinue
awarding sole-source contracts and subcontracts and establish guidelines for
awarding contracts to ensure that competition is sought and that contracted goods
and services are obtained in the most cost effective manner.

NOTE G: “AMS’ changes to its oversight of the Board combined with its repeated
attempts to correct the Report’s misstatements demonstrates the Agency’s



USDA/OIG-A/01001-3-Ch                                                      Page 64
EXHIBIT B - OIG’S COMMENTS RELATED TO AMS’ WRITTEN
           RESPONSE


commitment to strong oversight and an accurate, dispassionate review of AMS
activities. * * * However, by ignoring changes that have occurred since the issuance
of the Alert, by misstating legal and factual issues, and by extrapolating from
unsupported assertions, the draft Report paints an inaccurate portrait of the Board
as well as of AMS’ oversight.”

We have acknowledged changes made since the issuance of the Management Alert.
Contrary to AMS’ statements, we did not misstate legal or factual issues. AMS
made these statements but did not provide support for them. Our report, supported
by all the evidence we gathered, accurately reflects the Board’s operations and
AMS’ oversight.

NOTE H: “We agree that the Fluid Milk Promotion Act of 1990, as amended (Act),
requires an independent evaluation of the effectiveness of the fluid milk promotion
program, but we disagree that this is not currently done. In making this
recommendation, the Report misconstrues the law and the opinion of the ERS * * *.
First, despite the Report’s criticism, the statute mandates that this evaluation occur
in conjunction with the evaluation of the producer funded dairy promotion program.
Second, it is the opinion of ERS which (1) has experience in evaluating advertising
and promotion programs, (2) has knowledge of the econometric models and data
available to evaluate advertising programs, and (3) has evaluated dairy advertising
programs since 1988, that it is not practical (given current resources) to evaluate
separately the effects of the two programs.

“In sum, since the inception of generic dairy advertising under the producer funded
dairy promotion program and fluid milk advertising under the Fluid Milk Program,
generic advertising for fluid milk and dairy products has been the subject of annual
independent evaluations * * *.”

Section H(m) of the Act states “The Secretary shall provide annually for an
independent evaluation of the effectiveness of the fluid milk promotion program
carried out under this subtitle during the previous year, in conjunction with the
evaluation of the National Dairy Promotion and Research Board established under



USDA/OIG-A/01001-3-Ch                                                      Page 65
EXHIBIT B - OIG’S COMMENTS RELATED TO AMS’ WRITTEN
           RESPONSE


section 113(b) of the Dairy Production Stabilization Act of 1983 * * *.” We believe
this requires an independent evaluation of each dairy program and that the term “in
conjunction” indicates simultaneous evaluations, not one united evaluation.

The policy of the Program, according to Section 1999B(b) of the Act, is to carry out
an effective program of promotion, research, and consumer education. Unless an
independent evaluation of this program is performed, it cannot be determined
whether the purpose of the Program has been fulfilled and the use of the
assessments justified.

The memorandum dated April 15, 1998, from ERS to AMS did not use the term
“impractical” in relation to separate studies of the two dairy campaigns. Rather, ERS
said “Any current attempt to evaluate the two campaigns separately would require
advertising variables that were unique to each campaign and based upon consumer
responses to each program. Such a model would require sampling and estimation
procedures which are beyond the time and resources of the (ERS) Evaluation
Committee.”

The AMS response stated that the Report ignored third-party evaluations the Board
had initiated. The Board’s unsigned draft letter to AMS dated June 16, 1998,
included a list of various evaluation activities/studies/research activities which
supposedly had been performed. During our review, we asked the Board
Administrator to provide information and copies of any evaluations or studies or
similar type reports conducted that would determine the effectiveness of the
Program’s promotion activities. None were provided. Rather, he stated that no such
study had been performed and that he did not believe the Board or anyone else
wanted to know whether the Board’s activities had increased fluid milk consumption.

NOTE I: “Since the OIG audit ended shortly after the issuance of the Alert, the
Report does not reveal the extensive changes made to the contract approval
process.

“The review and approval of Board budgets, program plans, and project descriptions
by AMS lays the framework for the program and administrative expenditures. The


USDA/OIG-A/01001-3-Ch                                                     Page 66
EXHIBIT B - OIG’S COMMENTS RELATED TO AMS’ WRITTEN
           RESPONSE


contract approval process further formalizes the budgetary process to implement the
approved campaigns and projects of the Board. Contracts in which the Board is a
party now are submitted to AMS for review and approval prior to the contract
becoming effective. Such contracts state that the agreement shall become effective
upon the approval by USDA. Subcontracts, MIF/IDFA contracts for resources, as
identified in the September 17, 1997, approval process, are sent to AMS for
approval.”

We did not end our review 1 month after we issued our Management Alert. Our
audit covered the period December 1993 through June 1997; however, our fieldwork
continued for several more months. We have recognized changes AMS has
reportedly made to the contracting process which we reported as unverified.

We do not agree that AMS’ approval of the Board’s budget can be substituted for
contract review and approval. Budgets are general outlines of planned program
expenditures. Budget review and approval can, in no way, substitute for contract
review and approval. Each contract, subcontract, sub-subcontract, etc., must be
made available for AMS’ scrutiny, review, and approval.

We also acknowledged that a new contract review process had been implemented;
however, with the information provided, we were unable to fully assess what the
review process is. For example, in response to our Management Alert, AMS agreed
on May 19, 1997, to “ * * * require that the Board submit all contracts and
subcontracts to the Department for review.” AMS revised its policy again on
September 17, 1997, which included a review and approval of about 9 contracts. In
its July 24, 1998, response to our official draft report, AMS stated that it “* * *will
revise its September 17, 1997, contract approval process with the Board to require
that, in addition to all Board contracts, all contracts of the Board’s contractors be
reviewed and approved by AMS.” We agreed with the changes AMS made in
response to our Management Alert; however, we did not agree with the changes
made on September 17, 1997. We also disagree with the proposed revision, as
stated in AMS’ July 24, 1998, memorandum, because it does not include all
contracts, subcontracts, sub-subcontracts, etc., which obligate Program funds.



USDA/OIG-A/01001-3-Ch                                                       Page 67
EXHIBIT B - OIG’S COMMENTS RELATED TO AMS’ WRITTEN
           RESPONSE


Note J: “To reach below those subcontracts and approve contracts of
subcontractors, would require the submission and approval of approximately 3,000
sub-subcontracts, sub-sub-subcontracts and purchase orders per year. A
requirement that all of these contracts be submitted to AMS for review and approval
prior to the activity would so hamper the implementation of the program that it would
be unable to function.”

We have never recommended that purchase orders be submitted for AMS’ review
and approval. However, we still believe that all contracts, subcontracts, sub-
subcontracts, etc., must be submitted to AMS and that AMS must develop the
criteria and threshold for determining which of these contracts will require a formal
review and approval. AMS’ discussion of “3,000 sub-subcontracts, sub-sub-
subcontracts and purchase orders” is irrelevant and does not address any issue in
this report. The preponderance of the 3,000 figure is purchase orders.

NOTE K: “AMS--and OGC--disagree with the Report’s interpretation of the legal
mandates. We disagree with the assertion by OIG that the Board has inappropriately
handled the ownership of the photographs prepared for the program. Even though
the OGC opinion was provided to OIG well in advance of releasing the Report, OIG
has chosen to disregard it.”

AMS has not provided us a copy of OGC’s disagreement with anything in this report;
consequently, we cannot comment on any such disagreement. We are not
“asserting” that the Board has inappropriately handled the ownership of the
photographs prepared for the Program. In Finding No. 3 we stated that both AMS
and the Board failed to meet their responsibility for oversight of the contracts with the
photographer. Lack of proper oversight by both AMS and the Board is evidenced by:
Failure to execute contracts with the photographer, failure to document negotiations
(if any negotiations were actually conducted) for the copyrights to the photographs,
and failure to obtain AMS’ approval.

We did not disregard OGC’s opinion. It is evident that the opinion says that, as the
contract was written, the photographer owns the copyrights to the photographs.



USDA/OIG-A/01001-3-Ch                                                         Page 68
EXHIBIT B - OIG’S COMMENTS RELATED TO AMS’ WRITTEN
           RESPONSE


There is no evidence of any negotiations for the ownership of copyrights to the
photographs.

The February 10, 1998, OGC opinion states that “ * * * the agreement with (the
photographer) did not expressly provide that the photographs would be considered
a ‘work made for hire.’ If (the photographer) and the Board (through its advertising
agency), had expressly provided that the photographs were to be ‘work made for
hire,’ then the copyright to them would not automatically belong to (the
photographer).” If the photographer and the Board (through MIF and the advertising
agency) had expressly agreed that the Board would own the copyright to the
photographs, the Board would not have had to pay the additional royalty rights
totaling $129,000 for the use of the photographs. This is a classic example of why
AMS must oversee the entire contracting process. Had the advertising agency’s
contract with the photographer been properly written, in compliance with the
contracts between the Board and MIF, and between MIF and the advertising agency,
then the Board would have owned the copyrights to the photographs.

NOTE L: “The report attempts to exchange ‘assets’ for the carefully crafted language
of the law. Immediately after citing the Order language quoted above, the Report
states that ‘according to the provisions in the Order, the Board is required to take title
to all assets developed or acquired with Board funds.’ (Emphasis added.) Clearly,
the term ‘asset’ expands the regulatory language.”

We agree that the term “asset” can be used to define a broad range of property.
However, in no instance did we refer to any asset other than the copyrights to the
photographs. Also, the value of copyrights is always listed on the balance sheet as
an asset. We did not err in our use of the word “asset.”

NOTE M: “While the Report claims that the Order requires the Board to do so, such
photographs are neither patents, copyrights, trademarks, inventions, or publications.
OGC has issued an opinion on this issue, yet the Report ignores this finding * * *.”

We did not ignore the OGC opinion. We have never said that photographs are



USDA/OIG-A/01001-3-Ch                                                          Page 69
EXHIBIT B - OIG’S COMMENTS RELATED TO AMS’ WRITTEN
           RESPONSE


copyrights. However, the photographs are copyrighted items and, because of the
way the contract was written, the photographer owns the copyrights to the
photographs. As a result, the photographer, and not the Board, controls the use of
the photographs. Our concern all along has been who has control and use of the
photographs. Without owning the copyright, the Board can use the photographs only
with the permission of the copyright owner and must pay additional royalties for
additional uses.

NOTE N: “Almost all contracts submitted by the Board contain standard language
that has been reviewed by the OGC for legal sufficiency.”

We recognized in our report that the contract language had been reviewed by OGC.
However, the larger issue is not “legal sufficiency,” but that AMS should ensure that
all contracts adequately address requirements in the Act and the Order.

NOTE O: “The Board owns the copyrights to the ads which incorporated the selected
photographs. Because the Board received what it paid for--no more, no less--it has
complied with the Act and Order * * *.”

We recognize that the Board owns the copyright to the advertisements; however, the
Board does not own the copyrights to the photographs in those advertisements. The
contracts with the photographer only allowed the Board to use the photographs in the
advertisements for 15 months, with renewal options available at additional cost. As
a result, ownership of the copyrights to the advertisements is of limited value
because the photograph is the focal point of those advertisements.

NOTE P: “ * * * the Report fails to recognize actions taken to implement this
recommendation * * *, which also was part of the Alert issued more than a year ago.

“In the future, AMS also will require that the Board’s Chairman and Administrator
both sign the management representation letters to CPA firms regarding the Board’s
financial, contractual, and legal position. In addition, AMS will request copies of such
letters for review.”



USDA/OIG-A/01001-3-Ch                                                        Page 70
EXHIBIT B - OIG’S COMMENTS RELATED TO AMS’ WRITTEN
           RESPONSE


The issue regarding management representation letters was not included in our
Management Alert. Our first recommendation regarding management representation
letters was in our draft audit report. The first time we were made aware of any
corrective actions taken regarding management representation letters was in AMS’
response dated July 24, 1998, to our official draft report.

We agree that the Board’s Chairman and Administrator should both sign the
management representation letters to CPA firms and that AMS should obtain copies
of these letters. However, AMS must also provide assurance that the Board’s
management representation letters accurately reflect the position of the Board’s
financial, contractual, and legal position.




USDA/OIG-A/01001-3-Ch                                                 Page 71
EXHIBIT C - ADVERTISING AGENCY’S MEMORANDUM TO
           OIG




                        [   ]
                        [   ]




USDA/OIG-A/01001-3-Ch                     Page 72
EXHIBIT C - ADVERTISING AGENCY’S MEMORANDUM TO
            OIG




USDA/OIG-A/01001-3-Ch                     Page 73
EXHIBIT C - ADVERTISING AGENCY’S MEMORANDUM TO
           OIG




USDA/OIG-A/01001-3-Ch                     Page 74
EXHIBIT C - ADVERTISING AGENCY’S MEMORANDUM TO
            OIG




USDA/OIG-A/01001-3-Ch                     Page 75
EXHIBIT C - ADVERTISING AGENCY’S MEMORANDUM TO
           OIG




USDA/OIG-A/01001-3-Ch                     Page 76
EXHIBIT C - ADVERTISING AGENCY’S MEMORANDUM TO
           OIG




USDA/OIG-A/01001-3-Ch                     Page 77
EXHIBIT C - ADVERTISING AGENCY’S MEMORANDUM TO
            OIG




USDA/OIG-A/01001-3-Ch                     Page 78
EXHIBIT C - ADVERTISING AGENCY’S MEMORANDUM TO
           OIG




USDA/OIG-A/01001-3-Ch                     Page 79
EXHIBIT C - ADVERTISING AGENCY’S MEMORANDUM TO
           OIG




USDA/OIG-A/01001-3-Ch                     Page 80
EXHIBIT C - ADVERTISING AGENCY’S MEMORANDUM TO
            OIG




USDA/OIG-A/01001-3-Ch                     Page 81
EXHIBIT C - ADVERTISING AGENCY’S MEMORANDUM TO
           OIG




USDA/OIG-A/01001-3-Ch                     Page 82
EXHIBIT C - ADVERTISING AGENCY’S MEMORANDUM TO
            OIG




USDA/OIG-A/01001-3-Ch                     Page 83
EXHIBIT D - ADVERTISING AGENCY’S MEMORANDUM TO
           OIG AS SENT BY AMS




                        [   ]
                        [   ]




USDA/OIG-A/01001-3-Ch                     Page 84
EXHIBIT D - ADVERTISING AGENCY’S MEMORANDUM TO
           OIG AS SENT BY AMS




USDA/OIG-A/01001-3-Ch                     Page 85
EXHIBIT D - ADVERTISING AGENCY’S MEMORANDUM TO
            OIG AS SENT BY AMS




USDA/OIG-A/01001-3-Ch                    Page 86
EXHIBIT D - ADVERTISING AGENCY’S MEMORANDUM TO
           OIG AS SENT BY AMS




USDA/OIG-A/01001-3-Ch                     Page 87
EXHIBIT D - ADVERTISING AGENCY’S MEMORANDUM TO
            OIG AS SENT BY AMS




USDA/OIG-A/01001-3-Ch                     Page 88
EXHIBIT D - ADVERTISING AGENCY’S MEMORANDUM TO
            OIG AS SENT BY AMS




USDA/OIG-A/01001-3-Ch                     Page 89
EXHIBIT D - ADVERTISING AGENCY’S MEMORANDUM TO
           OIG AS SENT BY AMS




USDA/OIG-A/01001-3-Ch                     Page 90
EXHIBIT E - ADVERTISING AGENCY’S MEMORANDUM TO
            ITS SUBSIDIARY




                            [       ]




           [   ]




           [   ]



                                        [   ]



                        [       ]                   [   ]
           [   ]                                [           ]




USDA/OIG-A/01001-3-Ch                                           Page 91
EXHIBIT E - ADVERTISING AGENCY’S MEMORANDUM TO
            ITS SUBSIDIARY




             [   ]



                        [   ]   [   ]




USDA/OIG-A/01001-3-Ch                     Page 92
